U.S. Small Business Administration
Office of Inspector General

   _________________________________


       Semiannual Report to Congress
                Fall 2006




      April 1, 2006 – September 30, 2006
  Inspector General Act Statutory Reporting Requirements

The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended, are
listed below.


Source                                                                                       Page

Section 4(a)(2)    Review of Legislation and Regulations                                         24

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                              3-24

Section 5(a)(2)    Recommendations with Respect to Significant Problems,
                    Abuses and Deficiencies                                                   43-46

Section 5(a)(3)    Prior Significant Recommendations Not Yet Implemented                      38-42

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                56-62

Sections 5(a)(5)   Summary of Instances Where Information Was Refused                         None
and 6(b)(2)

Section 5(a)(6)    Listing of OIG Reports                                                     29-30

Section 5(a)(7)    Summary of Significant Audits & Other Reports                               4-24

Section 5(a)(8)    Audit Reports with Questioned Costs                                           31

Section 5(a)(9)    Audit Reports with Recommendations that Funds Be Put to
                    Better Use                                                                   31

Section 5(a)(10)   Summary of Reports From Prior Semiannual Reports
                    Where No Management Decision Was Made                                     33-34

Section 5(a)(11)   Significant Revised Management Decisions                                   None

Section 5(a)(12)   Significant Management Decisions with Which
                    the OIG Disagreed                                                         None

Section 5(a)(13)   Information Described Under Section 05(b) of the Federal
                    Financial Management Improvement Act of 1996                               N/A
                    A Message From The Inspector General

I am pleased to present the Small Business Administration (SBA), Office of Inspector General (OIG),
Semiannual Report summarizing activities from April 1, 2006, through September 30, 2006.

As an independent, objective reviewer of SBA’s operations and programs, the OIG seeks to target
potential financial vulnerabilities and fraud, promote effective program management, ensure complete
and accurate financial reporting, and improve information security. During this reporting period, we
issued 15 reports with recommendations for improving Agency operations, reducing fraud and
unnecessary losses, and recovering funds. OIG investigations led to 32 indictments and 19 convictions of
subjects who defrauded the Federal Government. Also, the OIG collectively reviewed 83 legislative,
regulatory, policy, procedural, and other proposals concerning the SBA and Government-wide programs.
With a staff of about 100, the OIG continues to produce sizeable savings and important program
improvements.

This reporting period, we continued to direct efforts toward the 2005 Gulf Coast hurricanes. As of
September 30, 2006, SBA approved over $10 billion in Gulf Coast disaster loans. To provide proper
oversight, we opened an office in New Orleans and developed a 5-year work plan to focus available
resources on programs, operations, and activities that expose SBA to significant risks in providing Gulf
Coast assistance. We also issued reports on loan disbursements, controls relating to duplication of
benefits, SBA’s Disaster Credit Management System (DCMS), and SBA staffing during times of
emergencies or catastrophes. Our investigators continue to work with the multi-agency Hurricane Katrina
Fraud Task Force to target individuals who have made false claims to obtain hurricane-related
government benefits. Allegations to date have included unauthorized use of loan proceeds, overstatement
of financial loss, and false statements regarding prior criminal records and financial liabilities.

This summer, I testified before the Senate Committee on Small Business and Entrepreneurship regarding
problems with governmental procurement activity intended for small businesses. The Small Business Act
provides that annually 23 percent of all government contracts be awarded to small businesses. To meet
this goal, SBA negotiates annual goals for small business contracts with other Federal agencies.
However, a number of Federal reports have shown that many contracts counted towards these small
business goals are actually being performed by firms that do not meet SBA’s criteria to be considered
small. This was due to three factors: (1) regulatory loopholes that allow this miscounting; (2) errors by
government contracting personnel; and (3) fraud or negligence by companies in attempting to obtain
small business set aside contracts. My testimony also focused on the need for regulatory and legislative
changes to address these challenges, and the need for SBA to take a more aggressive approach towards
working with other agencies to eliminate these flaws. Lastly, OIG has initiated a task force to focus on
the issues of integrity in small business contracting and accuracy of reporting by Federal agencies on
small business procurement activity.

I would like to thank SBA’s new Administrator, Steven Preston, for the support he has shown for the
OIG’s work in his short time with the Agency. I look forward to continuing to work with the
Administrator and his leadership team in carrying out the OIG’s mission to fight waste, fraud, and abuse
and promote greater government efficiency.



Eric M. Thorson
Inspector General
                                                          Table of Contents


Overview of SBA and the OIG............................................................................................................................. 1

Agency Management Challenges ......................................................................................................................... 3

Significant OIG Activities .................................................................................................................................... 4

                      Disaster Loans............................................................................................................................... 4

                      Small Business Access to Capital ............................................................................................... 10

                      Small Business Development, Contracting, Education, and Training ........................................ 15

                      Agency Management .................................................................................................................. 20

                      Other Significant OIG Activities. ............................................................................................... 23

Statistical Highlights........................................................................................................................................... 25

Appendices

        I.        OIG Reports Issued ........................................................................................................................ 29

       II.        OIG Reports with Questioned Costs .............................................................................................. 31

     III.         OIG Reports with Recommendations that Funds Be Put to Better Use ......................................... 31

     IV.          OIG Reports with Non-Monetary Recommendations .................................................................... 32

       V.         OIG Reports from Prior Semiannual Periods with Overdue Management
                  Decisions as of September 30, 2006............................................................................................... 33

     VI.          OIG Reports Without Final Action as of September 30, 2006....................................................... 35

    VII.          Significant Recommendations from Prior Semiannual Reporting Periods
                  Without Final Action as of September 30, 2006 ............................................................................ 38

   VIII.          6-Month Significant Recommendations Summary as of September 30, 2006............................... 43

     IX.          List of Events/Activities Where SBA Used its Cosponsorship Authority
                  Over the Last 6 Months .................................................................................................................. 47

       X.         6-Month Legal Actions Summary .................................................................................................. 56

      XI.         OIG Organizational Chart .............................................................................................................. 63
                                                 Table of Contents


Additional Semiannual Legislative Reporting Requirements from the Small Business Act, as Amended:

            SBA Cosponsorship and Fee-Based Administration-Sponsored Events—Small
            Business Act, Section 4(h) ............................................................................................................. 19

            SBDC Surveys—Small Business Act, Section 21(a)(7) ................................................................ 19

            SBA Gift Authority—Small Business Act, Section 4(g)(2)........................................................... 21
                           Overview of SBA and the OIG

The Small Business Administration

The mission of the SBA pursuant to the Small Business Act is to maintain and strengthen the Nation’s
economy by enabling the establishment and viability of small businesses and by assisting in the economic
recovery of communities after disasters. The SBA has three programmatic strategic goals that broadly
define what the Agency and its programs are trying to accomplish: (1) improve the economic
environment for small businesses; (2) increase small business success by bridging competitive
opportunity gaps facing entrepreneurs; and (3) restore homes and businesses affected by disaster. SBA is
organized around four key functional areas: capital access, government procurement opportunities,
management and business skills development, and small business and homeowner disaster assistance.
The Agency also represents small businesses through an independent advocate and an ombudsman. SBA
headquarters is located in Washington, D.C., while its business products and services are delivered with
the help of 10 regional offices, 68 district offices and a vast network of resource partners in all 50 States,
the District of Columbia, Puerto Rico, American Samoa, the U.S. Virgin Islands, and Guam. SBA’s
appropriation for Fiscal Year (FY) 2006 was $533 million, plus an additional $1,700 million from
supplemental appropriations for disaster relief. As of September 30, 2006, SBA had 2,156 employees
(including Office of Inspector General (OIG) personnel but excluding disaster-funded employees). There
were 4,184 temporary and permanent disaster employees, excluding contractors.

The Office of Inspector General

Under the authority and in fulfillment of the Inspector General Act of 1978, as amended, the SBA OIG
adds value to Agency programs and operations by providing auditing, investigative, and other services to
support and assist SBA in achieving its statutory mission. We strive to identify significant issues and
offer recommendations to correct or eliminate problems and fraudulent schemes that adversely impact the
efficiency, effectiveness, or integrity of SBA’s programs and operations.

The OIG has four divisions that perform the key functions described below.

    •   The Auditing Division performs financial, information technology and other mandated audits,
        program performance reviews, and internal control assessments, and oversees audits by
        contractors to promote the economical, efficient, and effective operation of SBA programs.

    •   The Investigations Division manages a program to detect and deter illegal and/or improper
        activities involving SBA programs, operations, and personnel. The criminal investigations staff
        carries out a full range of traditional law enforcement functions. The security operations staff
        ensures that all Agency employees have the appropriate background investigations and security
        clearances for their duties, and conducts the name check program, which provides SBA officials
        with character-eligibility information on loan applicants and other potential program participants.

    •   The Counsel Division provides legal and ethics advice to all OIG components, represents the
        OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
        enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act
        requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
        procedures.




                                                      1
                          Overview of SBA and the OIG

    •   The Management and Policy Division provides business support (e.g., budget/financial
        management, human resources, information technology, and procurement) for the various OIG
        functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
        SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG’s headquarters is located in Washington, DC. Field staff are located in the following locations:
Atlanta, GA; Chicago, IL; Dallas, TX; Detroit, MI; Denver, CO; Herndon, VA; Houston, TX; Kansas
City, MO; Los Angeles, CA; Miami, FL; New Orleans, LA; New York, NY; Philadelphia, PA; Tacoma,
WA; and Washington, DC.

Appendix XI contains an organization chart for the OIG.

OIG Work During This Reporting Period

As of September 30, 2006, the OIG had 100 staff on-board. The OIG’s FY 2006 appropriation was
$13.7 million, including a $1.5 million transfer for disaster assistance oversight activities (net of
rescissions). In addition, a supplemental appropriation during FY 2006 provided the OIG with $5 million
in “no-year” funds for Gulf Coast hurricane disaster oversight.

During this reporting period, OIG work focused on the two strategic goals in the OIG’s FY 2006-2011
Strategic Plan: (1) improving the economy, efficiency, and effectiveness of SBA programs and
operations; and (2) promoting and fostering integrity in SBA programs and operations. Using this
framework, the OIG concentrated on critical risks facing SBA, which include: (1) risks of financial losses
due to SBA's downsizing, centralization, and limited oversight and controls; (2) risks to SBA's
performance of its statutory mission to promote small business development and Government contracting;
and (3) risks associated with SBA's information technology and financial management systems, and other
internal operations.

The challenges and risks facing the Agency increased significantly with the devastation from the Gulf
Coast hurricanes during 2005. The OIG has begun a series of reviews of the management of SBA’s
disaster assistance process, the loan application approval process, loan disbursement activities, use of
proceeds, and SBA’s Disaster Credit Management System (DCMS). The OIG is also directing
investigative efforts toward detecting and deterring fraud related to the SBA Disaster Loan program.

OIG efforts and accomplishments during the second half of FY 2006 are summarized in this document.
Audits and related activity during this reporting period are listed in Appendix I. Investigative actions are
summarized in Appendix X. OIG reports and other work products are available on the OIG’s website at
http://www.sba.gov/ig/igreadingroom.html.




                                                     2
                        Agency Management Challenges

In accordance with the Reports Consolidation Act of 2000, each fiscal year the OIG identifies the most
important management and performance challenges facing the Agency for inclusion in SBA’s
Performance and Accountability Report (PAR). The
Management Challenges represent areas that the OIG            The Management Challenges represent
considers to be particularly vulnerable to fraud, waste,            areas that the OIG considers to be
abuse, or mismanagement, or that otherwise pose               particularly  vulnerable to fraud, waste,
significant risk to the Agency, its operations, or its              abuse, or mismanagement, or that
credibility. Each Management Challenge generally has             otherwise  pose significant risk to the
originated from one or more OIG or Government                 Agency, its operations, or its credibility.
Accountability Office (GAO) report.           For each
Management Challenge, we provide the Agency with recommended remedial actions together with our
assessment of Agency progress on each recommended action during the preceding fiscal year.

The SBA’s most serious Management Challenges for FY 2006 were as follows:

  •   Flaws in the Federal procurement process allow large firms to receive small business awards and
      agencies to receive small business credit for contracts performed by large firms.
  •   SBA faces significant challenges in financial management and reporting that affect its ability to
      provide reliable, timely and accurate financial information.
  •   Information systems security needs improvement.
  •   Maximizing program performance requires that SBA fully develop, communicate, and implement a
      human capital management/transformation strategy.
  •   The Guaranty Purchase Center needs better controls over the business loan purchase process.
  •   SBA needs to continue improving lender/participant oversight.
  •   The Section 8(a) Business Development program needs to be modified so more participating
      companies receive access to business development, standards for determining economic
      disadvantage are clear and objective, and more eligible companies receive contracts.
  •   The current practices of the SBIC program place too much risk on taxpayer money.
  •   Preventing loan agent fraud requires additional measures.
  •   SBA needs to update its system of directives to provide proper guidance and control over its
      operations.

The OIG updates the Management Challenges each year to accurately reflect the current challenges facing
the Agency. During this reporting period, the OIG continued to evaluate the Management Challenges to
assess Agency progress in resolving them and identify revisions needed to keep them forward-looking.
The results of this process will be reflected in the FY 2007 Management Challenges to be included in the
Agency’s FY 2006 PAR.

By their nature, these Challenges require   While Agency progress on a number of the Management
continued long-term commitment and          Challenges has been encouraging, much more remains to be
effort by the Agency.                       done. By their nature, these Challenges require continued
                                            long-term commitment and effort by the Agency.




                                                   3
                              Significant OIG Activities

                                         Disaster Loans
The Disaster Loan program, a major SBA lending program, is designed to respond to the long-term
recovery needs of disaster victims. By law, SBA is authorized to make two types of disaster assistance
loans: (1) physical disaster loans, which are a primary source of funding for permanent rebuilding and
replacement of uninsured real and personal property belonging to homeowners, renters, businesses of all
sizes, and nonprofit organizations; and (2) economic injury disaster loans, which provide necessary
working capital to small businesses until normal operations can be resumed after a disaster. This highly
visible program is vulnerable to fraud and unnecessary losses because loan transactions are expedited in
order to provide quick relief to disaster victims. It is also an area susceptible to improper payments as
disaster loans may duplicate benefits provided to disaster victims by other Federal agencies.

On August 29, 2005, Hurricane Katrina devastated the
Gulf Coast regions of Louisiana, Mississippi, and                    As of September 30, 2006, SBA had
Alabama. Katrina was the third most intense hurricane         approved   over $10 billion in low-interest,
to hit the United States in recorded history, and the sixth            taxpayer-backed disaster loans to
strongest recorded in the Atlantic Basin. It was quickly           homeowners,    renters, and businesses
followed by Hurricanes Rita and Wilma, creating further           affected by the Gulf Coast hurricanes.
loss of lives and property in Florida and Texas. As of
September 30, 2006, SBA had approved over $10 billion in low-interest, taxpayer-backed disaster loans
to homeowners, renters, and businesses affected by the Gulf Coast hurricanes.

OIG Emphasizes Oversight of SBA Disaster Assistance

In December 2005, Congress appropriated $5 million for necessary expenses of the OIG related to the
consequences of the 2005 Gulf Coast hurricanes. With these funds, the OIG has established a new office
in New Orleans and has dedicated additional audit and investigative personnel to provide oversight of
                                                 SBA disaster assistance efforts related to the Gulf
…the OIG established a new office in New         Coast hurricanes. Given the scope of SBA’s hurricane
Orleans and has secured additional audit and     disaster response efforts, and the fact that many
investigative resources to provide effective     borrowers will not have to begin repaying disaster
oversight of SBA disaster assistance efforts in  loans until 2007, we anticipate a considerable amount
the Gulf Coast region.                           of work for years to come. Therefore, as discussed
                                                 below, the OIG has developed a 5-year work plan
which identifies anticipated reviews of SBA’s programs and operations and other OIG projects related to
the Gulf Coast hurricanes.

Inspector General Testifies on SBA’s Efforts to Assist Hurricane Victims

On May 10, 2006, the Inspector General testified before the House Committee on Government Reform,
Subcommittee on Government Management, Finance, and Accountability, on SBA’s efforts to assist
victims of the Gulf Coast hurricanes. At that time, SBA had approved over $9 billion in disaster relief
loans to hurricane victims. The Inspector General told the Members of the Subcommittee that, given the
considerable potential for program inefficiencies and fraudulent attempts to obtain Federal assistance,
oversight of the Agency’s relief efforts was a top OIG priority. The OIG had already issued several
reports, including an analysis of problems with SBA’s disaster loan computer system and
incompatibilities between the SBA and Federal Emergency Management Agency (FEMA) computer


                                                    4
                               Significant OIG Activities

systems. The Inspector General also discussed proactive and aggressive approaches being taken by OIG
investigators to identify instances of fraud in obtaining disaster loans, as well as the OIG’s participation in
various government-wide initiatives to provide oversight of the Federal Government’s response to the
Gulf Coast hurricanes.

OIG Develops Comprehensive Disaster Assistance Work Plan

The size and magnitude of SBA’s Gulf Coast hurricane disaster relief effort require that the OIG provide
proactive and substantive oversight of hurricane disaster loans to minimize potential fraud, waste and
                                                 abuse. In June 2006, the OIG issued a “Work Plan for
…the OIG issued a “Work Plan for 2005            2005 Gulf Coast Hurricane Disasters” to focus available
Gulf Coast Hurricane Disasters” to focus         resources on issues, programs, operations, and activities
available resources on issues, programs,         that expose SBA to significant risks in providing
operations, and activities that expose SBA       assistance to victims of the Gulf Coast hurricanes. This
to significant risks in providing assistance     work plan summarizes anticipated projects based on
to victims of the Gulf Coast hurricanes…         risks identified in past disasters and our current
                                                 understanding of specific risks arising from the unique
aspects of the 2005 hurricanes. For example, SBA’s practice of attempting to process disaster loans
quickly, using significant numbers of newly-hired employees, places the Disaster Loan program at risk.
The timing and severity of the 2005 Gulf Coast hurricanes, together with operational changes in SBA’s
Office of Disaster Assistance that occurred just prior to, or concurrently with, the relief effort, presented
additional risks.

The OIG has already completed a number of audits and reviews covering loan disbursements, controls
relating to duplication of benefits, SBA’s Disaster Credit Management System (DCMS), and SBA
staffing during times of emergencies or catastrophes. On-going and planned reviews conducted
throughout the loan cycle (i.e., origination, disbursement, use of proceeds, servicing, and liquidation) will
focus on prevention of problems, including reviewing internal controls, monitoring and advising agency
officials on precedent-setting decisions, and assessing the quality of loans.

The unprecedented volume of SBA disaster loans, coupled with the external pressure on the Agency to
make loans quickly, also opens the door to potential widespread fraud in obtaining benefits. The OIG has
undertaken a number of proactive investigative efforts, including fraud awareness briefings, and has a
number of ongoing investigations.

Delays in Disaster Loan Disbursements Primarily Borrower Driven

Although, as of May 27, 2006, SBA had approved over $9 billion in disaster loans for victims of the Gulf
Coast hurricanes, SBA reported that it had disbursed only $1.4 billion (14 percent) of the loans approved.
To determine the reasons for this low rate of disbursement,
and to identify any impediments in the loan closing and                   …63 percent of loans reviewed
disbursement processes that were affecting SBA’s ability to      experienced processing issues that were
provide timely assistance to disaster victims, we reviewed          primarily attributed to the borrowers.
220 approved loans – totaling $16.1 million – that were in
various stages of closing and disbursement. Our review revealed that no problems were encountered for
81 (37 percent) of the loans. The remaining 139 loans (63 percent) experienced processing issues that
were primarily attributed to the borrowers. These issues included: delays by the borrowers in filing loan



                                                      5
                              Significant OIG Activities

closing documents (49 loans); indecision or reluctance on the part of the borrowers to proceed with the
loans (47 loans); and delays by SBA in processing loan modifications filed by borrowers to change the
terms and conditions of the loans or to update borrower information, because SBA was processing new
loan requests ahead of modifications (40 loans). Because disbursement delays were largely borrower-
driven, the OIG made no recommendations. However, the OIG has initiated an audit of SBA’s loan
modification process to determine whether improvements are needed to more expeditiously process such
actions. In response to the OIG’s report, the Agency stated that it had realigned work assignments to
dedicate staff to the processing of loan modifications.

DCMS Upgrade Project Needs to Be Reaccredited

In December 2005, SBA initiated an upgrade of DCMS to expand user capacity, provide a more a reliable
disaster recovery environment, and improve the test environment for fine tuning and upgrading
application modules over the long-term. Because the upgrade involved significant changes to DCMS, the
OIG reviewed the upgrade project to determine whether SBA had completed a security reaccreditation of
the system as required by Federal Standards issued by the National Institute of Standards and Technology
(NIST). The OIG determined that the project did not include a reaccreditation and recommended that a
full reaccreditation of the DCMS upgrade project be made before placing the system upgrade into
production. The Agency concurred and stated it would perform an interim accreditation before the
system was deployed in June 2006 and a full accreditation no later than October 2006.

Changes Needed in DCMS Upgrade Project Performance Test Plan

The OIG also reviewed SBA’s performance test plan for DCMS to identify any disparities between
system requirements approved by the Agency’s Business Technology Investment Council and the
…system acceptance was not            performance test success criteria in the DCMS Upgrade
based on testing for the maximum      Performance Test Plan. The review disclosed that system
number of expected users…             acceptance was not based on testing for the maximum number of
                                      expected users – the Agency was only planning to test the system
for a maximum of 2,000 concurrent users before accepting it, although the system was supposed to
support 10,000 concurrent users. We recommended that the SBA modify its test plans and continue to
improve and fine tune future system upgrades and enhancements.

Flexible Staffing Could Aid Disaster Loan Processing

During catastrophic events, SBA should have the flexibility and capability to redeploy and expand
personnel resources to ensure timely loan processing assistance is provided to disaster victims. However,
SBA was not able to fully use its regional, district and
                                                                         SBA was not able to fully use its
branch offices to help process the large volume of Gulf
                                                                   regional, district and branch offices to
Coast disaster loans because these offices did not have
                                                                 help process…Gulf Coast disaster loans
access to DCMS. DCMS also could not accommodate more
                                                                        because these offices did not have
than 1,500 concurrent users, and SBA personnel working
                                                                                          access to DCMS.
outside of SBA’s Forth Worth, Sacramento, and Buffalo
facilities did not have access to the system. Given the planned increases in DCMS capacity, the OIG
believes that SBA should further enhance DCMS capability to allow access to other SBA personnel and
third-party contractors to provide disaster assistance and process disaster loans. Therefore, the OIG
recommended that the Agency: (1) establish a catastrophic disaster plan that includes flexible staffing of



                                                    6
                               Significant OIG Activities

SBA personnel assets Agency-wide, and (2) identify the infrastructure requirements that would be needed
in the event of full activation of the flexible staffing catastrophic disaster plan. The Agency concurred
with the recommendations.

Better Controls Needed to Prevent Duplication of Benefits

In September 2006, the OIG issued an advisory report on a preliminary assessment of controls to prevent
the duplication of disaster assistance benefits being disbursed under a Department of Housing and Urban
Development (HUD) program by the Mississippi Development
                                                                           …SBA must be able to identify
Authority (MDA). Federal law mandates that recipients of
                                                                      disaster loans that may be impacted
Federal disaster assistance not receive overlapping or duplicative
                                                                                     by grant assistance…
payments. Therefore, SBA must be able to identify disaster
loans that may be impacted by grant assistance and take appropriate action to ensure that individuals do
not receive assistance for losses for which they have been compensated by other programs or sources.
MDA is distributing HUD grants of up to $150,000 to Gulf Coast residents to rebuild their hurricane-
damaged homes. Approximately $500 million in SBA loans could be affected by the MDA grants, and
similar grant distribution programs are planned by other Gulf Coast States.

                                           The OIG found that SBA had not taken adequate steps to:
… controls are needed to ensure that       (1) coordinate aid distribution efforts with MDA; (2) identify
material financial transactions are        disaster loans to be impacted by the HUD grants; or
properly executed in accordance with       (3) adequately test data transfer mechanisms to ensure that
Federal guidance and regulations.          information shared between agencies is safeguarded and that
                                           duplicate benefit transactions are properly recorded for
financial reporting purposes. Consequently, controls are needed to ensure that material financial
transactions are properly executed in accordance with Federal guidance and regulations.

The OIG recommended that SBA: (1) establish key tasks and time frames for coordinating disaster
assistance; (2) ensure that a Memorandum of Understanding (MOU) is completed with all States planning
to distribute HUD grants; (3) complete an assessment of SBA loans to be impacted by State-administered
HUD grants; and (4) execute test plans and procedures to ensure that data transferred between agencies is
processed correctly, loans are accurately adjusted before grant funds are disbursed, and financial
transactions are properly initiated, recorded, processed, and reported in the Agency’s financial statements.

The Agency generally agreed with the OIG’s recommendations, but took the position that the entity
providing the additional funding is responsible for assuring there is no duplication of benefits. SBA’s
Office of Disaster Assistance is also completing necessary MOUs with States receiving HUD grants to
establish necessary data exchange protocols needed to determine the amount of any duplicate benefits,
and issuing operational procedures for the processing of loan modifications resulting from State
programs.

OIG Issues Small Business Contracting Review Guide

The Stafford Act recognizes that the local economy is stimulated when contracts are awarded to small,
disadvantaged and local businesses. Also, the Small Business Act requires the President to establish
annual government-wide goals where 23 percent of all Federal procurements are awarded to small
businesses. Hence, the Federal Government is committed to providing preference to locally-owned



                                                     7
                              Significant OIG Activities

businesses when agencies enter into contracts in response to a disaster. Following the 2005 Gulf Coast
hurricanes, Members of the House and Senate Small Business Committees, Members of Congress from
                                               the Gulf Coast region, and Gulf area local leaders all
This guide…will help verify and validate       expressed concern over whether small businesses were
compliance with small business                 receiving a sufficient number of Federal disaster contracts,
requirements in the awarding of Gulf           and whether agencies were accurately reporting on small
Coast Hurricane relief contracts.              business contract awards. To address these issues, the
                                               OIG, as part of the PCIE Contracting Subgroup, issued a
“Small Business Review Guide” to aid other OIGs in reviewing small business contracts related to the
Gulf Coast hurricanes. This guide, which is designed to supplement contract reviews conducted by
agencies that are participating in the disaster recovery, will help verify and validate compliance with
small business requirements in the awarding of Gulf Coast hurricane relief contracts.

Multi-Agency Effort Identifies Gulf Coast Hurricane Fraud

The OIG is participating in a multi-agency Hurricane Katrina Fraud Task Force, headed by the
Department of Justice’s Criminal Division, which targets individuals who have made false claims to
obtain hurricane-related government benefits. By identifying individuals who have defrauded even one
government program, the task force is able to prevent fraud
by the same individuals in other programs. In one case, a            …a multi-agency Hurricane Katrina
joint task force investigation resulted in the indictment of a     Fraud Task Force…targets individuals
Texas man for wire fraud, mail fraud, and identity theft. He         who have made false claims to obtain
had filed multiple applications for FEMA benefits as a result      hurricane-related government benefits.
of Hurricanes Katrina and Rita, fraudulently claiming to
have resided at multiple locations in the disaster areas when the hurricanes struck. In reality, he was
residing in the Houston, Texas area. As a result of these false claims, he received approximately $35,000
in cash benefits from FEMA. These false claims also caused the man to be eligible for SBA disaster loan
benefits.

OIG Continues to Uncover Fraud in Disaster Loans made to Small Business Victims of the
September 11th Terrorist Attacks

SBA disbursed over $1.1 billion in disaster assistance loans in response to the September 11th terrorist
attacks. As with other disasters, the need to disburse funds quickly to the victims of the September 11th
attacks created opportunities for dishonest applicants to commit fraud. Because loan repayments are
typically deferred, problems often do not emerge immediately.

The OIG has investigated and obtained the prosecution of numerous parties who took advantage of this
national tragedy. For example, the owner of a manufactured home sales dealership obtained a $487,600
                                             SBA disaster loan for economic injury allegedly resulting
The OIG has investigated and obtained        from the September 11th terrorist attacks. He claimed that
the prosecution of numerous parties          the finance company he used was located in New York and
who took advantage of this national          had stopped financing manufactured homes because of the
tragedy.                                     tragedy. However, our investigation disclosed that the
                                             finance company was actually located in Vermont and that
the company’s decision to stop financing manufactured homes in September 2001 had nothing to do with
the terrorist attacks. Moreover, the investigation found that the business owner used the proceeds to pay



                                                    8
                              Significant OIG Activities

himself $405,000 – allegedly as repayment for an officer loan. The owner was sentenced to 30 months
imprisonment and 5 years probation, and was ordered to pay restitution of nearly $835,000 as a result of
his earlier guilty plea to mail fraud and bank fraud. The Federal Bureau of Investigation (FBI) handled
the bank fraud charge, which involved defrauding a lender of more than $347,000.

Inspector General Testifies About “Lessons Learned” from Response to the September 11th
Terrorist Attacks

On July 13, 2006, the Inspector General testified before the House Committee on Homeland Security,
Subcommittee on Management, Integration and Oversight, about (1) an OIG audit of a special SBA loan
program intended to assist small businesses harmed by the 9-11 terrorist attacks, and (2) the OIG’s
proactive efforts to detect and prosecute fraud by persons who wrongfully obtained financial assistance in
connection with the terrorist attacks.

Under the Supplemental Terrorist Activity Relief (STAR) loan program, SBA guarantied loans by private
lenders to assist small businesses affected by the 9-11 attacks. The OIG’s audit of this program, which
was issued in December 2005, found that the Agency did not
implement adequate internal controls and oversight to ensure            …the Agency did not implement
that only borrowers who had actually been harmed by the                   adequate internal controls and
terrorist attacks obtained STAR loans. The OIG reviewed          oversight to ensure that only borrowers
bank files for a sample of the STAR loans and could not            who had actually been harmed by the
determine from the lenders’ documentation for 85 percent of       terrorist attacks obtained STAR loans.
these loans whether the borrowers had actually been injured
by the terrorist attacks. In addition, borrowers on many of these loans, when interviewed by the OIG,
could not recall being asked whether they had ever been harmed by the terrorist attacks. The OIG audit
recommended corrective measures to prevent similar problems in the event of a comparable program in
the future.

The Inspector General also testified about OIG efforts to investigate and prosecute loan fraud related to
the terrorist attacks. The OIG opened 51 cases relating to 9-11 loan fraud. As of the date of the hearing,
these investigations had resulted in 10 indictments, 10 convictions, and over $1 million in restitution and
settlements.




                                                    9
                              Significant OIG Activities

                           Small Business Access to Capital
SBA has a financial assistance portfolio of small business loans and financings exceeding $58 billion.
With more than 5,000 lenders authorized to make SBA loans, the Section 7(a) Loan Guaranty program is
                                           SBA’s largest lending program and the principal vehicle for
As SBA has placed more                     providing small businesses with access to credit they cannot
responsibility and independence on         obtain elsewhere. This program is vulnerable to fraud and
its lenders, the importance of OIG         unnecessary losses because it relies on numerous third parties
oversight has increased significantly.     (including borrowers, loan agents, and lenders) to complete
                                           loan transactions.    Approximately 80 percent of loans
guarantied annually by SBA are made by lenders to whom SBA has delegated loan-making authority.
Additionally, SBA has centralized many loan functions and reduced the number of staff performing these
functions. As SBA has placed more responsibility and independence on its lenders, the importance of
OIG oversight has increased significantly.

The Small Business Investment Company (SBIC) program was established in 1958 to stimulate and
supplement the flow of private equity capital and long-term debt to small business concerns using private
venture capital firms and SBA-guarantied funding. Small and emerging contractors who cannot obtain
surety bonds through regular commercial channels can apply for SBA bonding assistance under the
Surety Bond Guaranty program.

Quality Assurance Reviews of Guaranty Purchase Decisions Need Strengthening

In January 2004, SBA established the National Guaranty Purchase Center (NGPC) in Herndon, Virginia,
to centralize the 7(a) loan guaranty purchase process. The guaranty purchase process involves an
assessment of lender compliance with SBA loan requirements to determine whether payment of a
guaranty on a defaulted loan is appropriate. Purchase reviews are intended to minimize erroneous
payments by ensuring that SBA purchases only those loans which were originated, closed, serviced, and
liquidated in accordance with loan authorizations, prudent lending standards, SBA regulations, and other
requirements.

The NGPC’s Quality Assurance Review (QAR) process is intended to provide SBA with additional
assurance that guaranty purchase decisions made by the Center are consistent and accurate, thereby
minimizing any losses the Agency might otherwise have
experienced. An OIG review of the QAR process found                …the NGPC…was not examining an
that, while the NGPC was reviewing loan purchase                  adequate volume of loans in the high-
decisions, it was not examining an adequate volume of loans       risk categories identified in its Quality
in the high-risk categories identified in its Quality Assurance                          Assurance Plan.
Plan. In addition, we found that only one senior staff
member was assigned to the QAR process on a part-time basis, a checklist used in the QAR process was
not complete, and procedures to address identified deficiencies had not been developed. The OIG made
five recommendations to correct these problems. In response to the report, SBA agreed to take steps to
strengthen the QAR process.




                                                    10
                              Significant OIG Activities

SBA’s Purchase Review Process for Backlogged Loans Resulted in Improper Payments to Lenders

From the time the NGPC was established in January 2004, until it began processing lender purchase
requests in March 2004, a backlog of 1,039 purchase requests accrued. In order to eliminate this backlog,
the Agency detailed Headquarters personnel to the Center in April 2004 to perform purchase reviews of
the backlogged purchase requests. The OIG reviewed 13 out of 115 backlogged loans that had been
transferred to liquidation within 18 months of approval, and had a purchase review prior to August 31,
2004. The purpose of our audit was to evaluate the quality of the Agency’s purchase review process to
determine whether it was sufficient to reduce improper payments to lenders. We identified deficiencies in
the purchase reviews of 9 of the 13 loans sampled, 2 of which had multiple deficiencies. Deficiencies
included: failure to identify over-disbursements on 2 CAPLines
loans and missing information needed to accurately determine the        We identified deficiencies in the
guaranty purchase amount on another CAPLines loan; inadequate            purchase reviews of 9 of the 13
support for equity injection on 4 loans; unsupported use of                            loans sampled…
proceeds on 3 loans; and unsecured collateral and a lender’s over-
accrual of interest on 1 loan. While the problems identified by our audit were not reflective of the
NGPC’s current purchase review procedures, the significant number of deficiencies identified indicated
that a high rate of improper payments may have occurred for the backlogged loans transferred to
liquidation within 18 months of loan approval. Therefore, we recommended that SBA re-examine
backlogged loans with a high risk of improper payments and develop a purchase review form for
CAPLines loans to ensure these types of loans are adequately reviewed in the future.

We issued individual audit reports on 5 of the 13 loans, which we determined collectively had resulted in
more than $1 million in improper payments. One of these reports, which was issued during this reporting
                                             period, revealed that the lender did not disclose a material
…the lender did not disclose a material
                                             fact to SBA regarding the lack of independence of the
fact to SBA regarding the lack of
                                             company that performed the valuation of the assets
independence of the company that
                                             purchased with the loan proceeds. The lender also made a
performed the valuation of the assets…
                                             false statement to SBA regarding the same company in
                                             connection with the asset injection valuation.        These
deficiencies were not detected during the guaranty purchase process. As a result, SBA erroneously paid
$373,258 on the loan guaranty, which we recommended be recovered from the lender.

OIG Identifies Problems with Policies and Procedures for SBA’s Largest Guarantied Loan
Program

The OIG issued an advisory memorandum identifying concerns with the policies and procedures of the
SBAExpress and CommunityExpress programs. The majority of SBA loans are made under the
SBAExpress program (72 percent of 7(a) loans in FY 2005); therefore, the problems identified were
significant. The report raised five concerns about the            …although the SBAExpress program
Express programs: (1) although the SBAExpress program           has been in existence for over 11 years,
has been in existence for over 11 years, SBA had not issued      SBA had not issued any regulations to
any regulations to govern the program; (2) the Agency’s                           govern the program…
program guide contained provisions that conflicted with
SBA regulations, and possibly the Small Business Act; (3) the program guide lacked sufficient criteria to
allow SBA to identify whether an applicant lender presented an undue risk to the Agency, and appeared to
impose more stringent requirements on lenders with previous SBA program experience; (4) certain



                                                   11
                              Significant OIG Activities

provisions in the program guide were ambiguous and did not provide sufficient guidance to lenders that
SBA could rely on for enforcement actions; and (5) the Agency was relying on a program guide for the
CommunityExpress program that was never officially cleared or issued by SBA, but that had been posted
on the SBA lending website as official SBA policy.

Dishonest Loan Agents Continue to Exploit SBA Loan Programs

Applicants or lenders may employ loan agents to prepare SBA loan applications and/or refer applicants to
lenders (or lenders to applicants). While honest loan agents can help small businesses gain access to
                                            capital, dishonest agents have perpetrated fraud involving
…dishonest agents have perpetrated          hundreds of millions of dollars in loans. Loans involving
fraud involving hundreds of millions of     loan agent fraud often default for non-payment. Unless a
dollars…                                    lender was aware of the fraud, SBA must then purchase the
                                            guarantied portions of the loans. Unscrupulous loan agents
can also conspire with others to commit crimes, sometimes for significant financial gain.

In one case, a joint investigation with the FBA disclosed that a loan agent and several co-conspirators
falsely obtained nine SBA-guarantied loans totaling $9.5 million for convenience stores in Texas. All of
the loans subsequently defaulted, and SBA’s
guarantied portion was nearly $6.6 million. The                …a loan agent and several co-conspirators
investigation revealed a conspiracy in which                  falsely obtained nine SBA-guarantied loans
borrowers would submit false and fraudulent                       totaling $9.5 million… All of the loans
documents, artificially inflate checking account                        subsequently defaulted, and SBA’s
deposits, and use loan proceeds to fund equity                guarantied   portion was nearly $6.6 million.
injections. The loan agent was sentenced to 6 months
of home confinement, 200 hours of community service, and 5 years of supervised release, and was
ordered to pay over $7.3 million in restitution. He cooperated with investigators by providing information
about additional SBA loan fraud and testified against other participants in the scheme.

The OIG’s “FY 2006 Report on the Most Serious Management Challenges Facing SBA” describes
measures necessary to prevent loan agent fraud. Because SBA has little information about loan agent
                                             involvement with its loans, it simply does not know the
… the Agency needs to systematically         magnitude of the loan agent problem. To remedy this, the
identify all loan agents and track their     Agency needs to systematically identify all loan agents and
association with individual loans.           track their association with individual loans. This is
particularly important as general oversight of loans shifts to lenders who may vary significantly in their
due diligence, and because each loan agent has opportunities for contact with multiple lenders.

Borrowers Conspire to Obtain SBA Loans

OIG investigations have found that borrowers sometimes work together to defraud both SBA and a
participating lender. Most of the fraud involves providing false information when applying for a loan or
misusing the proceeds of the loan. For example, as a result of a joint investigation with the Department
of Homeland Security, three indictments were filed alleging that six individuals were involved in a
conspiracy to provide false information when applying for SBA-guarantied loans. The cases below,
involving three different gas stations/convenience stores, illustrate the tactics used to defraud SBA and
participating lenders.



                                                    12
                              Significant OIG Activities

  •   A part owner of a gas station/convenience store, his wife, and a loan broker were indicted on
      charges of conspiracy and false statements in order to obtain a $1.35 million SBA-guarantied loan.
      The owner and loan broker allegedly claimed that the owner made an equity injection of at least
      $240,000 prior to loan disbursement. Moreover, his wife, a credit union employee, allegedly
      falsely reported that the company had a credit union account balance of over $63,000. The loan
      defaulted, and SBA paid a claim of over $1 million in June 2003. Arrest warrants have been issued,
      and all three defendants are fugitives. It is believed that the part owner and his wife have fled to
      Australia, and the loan broker has returned to his native Qatar.

  •   A part owner of a gas station/convenience store, his undisclosed partner, and the seller of the
      property were indicted on charges of conspiracy, false statements, and wire fraud in connection
      with a $1.165 million SBA-guarantied loan used to purchase the property. The three individuals
      allegedly conspired to falsely claim that the part owner was a U.S. citizen, a former gas station
      manager, and the business’ sole owner. Two checks were allegedly altered to make it appear that
      he had made a $250,000 down payment toward the purchase of the property. He defaulted on the
      loan, and SBA paid a claim of over $1 million in November 2002.

  •   A company president and his brother, who was the president of a second company, were charged
      with false statements, conspiracy, and aiding and abetting in connection with a $990,000 SBA-
      guarantied loan made to the first company. The approved purpose of the loan was to assist in the
      purchase of a gasoline station/convenience store. However, the actual object of the alleged scheme
      was to merely refinance and consolidate delinquent debts owed by the seller using proceeds from
      the loan made to the “straw buyer.” The loan defaulted and SBA purchased its guaranty for over
      $719,000 in November 2003.

False Claims of Citizenship Continue in SBA Loan Programs

Borrowers and loan agents continue to use well-organized schemes in which prospective borrowers
                                  falsely claim to be U.S. citizens in order to obtain SBA-guarantied
These loans often default         loans. These loans often default quickly, with millions of dollars at
quickly, with millions of dollars risk (an individual loan can exceed $1 million). In addition, loans to
at risk….                         such ineligible borrowers can make financing unavailable to honest
                                  loan applicants.

In one case, an investigation revealed that a business owner applied for a $308,000 SBA-guarantied loan
to purchase a convenience store and falsely indicated that he
was a U.S. citizen. He later applied for an additional $870,000     …a businessman falsely reported that
SBA-guarantied loan and failed to disclose the prior                  he was a U.S. citizen and made other
outstanding loan to the lender. The man pled guilty to making        misrepresentations in order to secure
false statements. In another case, a businessman falsely                a $1 million SBA-guarantied loan.
reported that he was a U.S. citizen and made other
misrepresentations in order to secure a $1 million SBA-guarantied loan. He and others, including a loan
agent, submitted to the lender an inflated purchase contract falsely showing a price of $1.32 million for a
convenience store, when the true price was under $789,000. The businessman agreed to inject $150,000
cash into the business when, in fact, at least $134,000 was not from him. Moreover, a bill of sale falsely
showed that he had sold a New York gift shop for $150,000. The businessman defaulted on the loan


                                                    13
                              Significant OIG Activities

within 1 year, and the lender lost over $900,000. After paying its guaranty, SBA lost over $686,000. In
conjunction with pleading guilty to bank fraud, the businessman was sentenced to time served, followed
by 3 years of supervised release, and was ordered to pay over $624,000 in restitution. The OIG
conducted this investigation jointly with the Texas Alcoholic Beverage Commission.

Fraudulent Schemes Used to Obtain SBA-Guarantied Loans

Criminals use many different tactics to fraudulently obtain SBA-guarantied loans, including false and
fraudulent documents, fictitious asset claims, non-disclosure of prior criminal records or other SBA loans,
misuse of loan proceeds, and manipulated property values.
                                                                      Criminals use many different tactics
These tactics increase the likelihood of monetary losses to
                                                                               to fraudulently obtain SBA-
SBA and lenders. In addition to the cases previously
                                                                                        guarantied loans…
discussed, the following examples illustrate the lengths to
which prospective borrowers will go to fraudulently obtain
SBA loans.

  •   The president of an electrical company pled guilty to a filing a false Federal income tax return that
      fraudulently represented $430,500 as part of the company’s cost of goods sold. The investigation
      disclosed that the man’s cousin falsely represented to SBA that his business made $430,500 in
      electrical supply sales to the electrical company, which then falsely claimed the purchases on the
      company’s tax return. This scheme contributed to the approval of a $1.1 million SBA loan to the
      purchasers of the cousin’s business by making that business appear more profitable than it actually
      was. The cousin was charged with wire fraud.

  •   A part owner of a vitamin and herb company obtained a $905,000 SBA-guarantied loan by falsely
      representing that he had authorization and a guarantee from the Board of Directors. He used the
      loan to buy a building, represented to the Board of Directors that the company would be leasing the
      building from a disinterested third party, and collected excessive lease payments under a fabricated
      name. Moreover, the investigation determined that he diverted over $1.5 million in company funds
      to purchase property and pay personal expenses. He pled guilty to forgery and money laundering
      and was sentenced to probation and community service and ordered to pay a fine and restitution.

OIG Issues Fraud Alert

The OIG proactively issued a notice alerting SBA employees and lenders about fraudulent schemes
                                            affecting the SBAExpress loan program.          Although an
Although an individual SBAExpress
                                            individual SBAExpress loan amount may be small, the total
loan amount may be small, the total
                                            dollar value can be large when multiple borrowers are involved
dollar value can be large when
                                            in a fraudulent scheme. In one case referred by a bank, the
multiple borrowers are involved in the
                                            OIG is investigating a loan agent scheme involving 57 smaller
scheme.
                                            loans (generally under $50,000) in which the business
applicants either did not exist or presented false business histories. The bank became aware of the fraud,
so not all of the loans were made. Similar schemes are being perpetrated against other lenders. The OIG
is working with lenders and will seek criminal prosecution where appropriate.




                                                    14
                               Significant OIG Activities

Small Business Development, Contracting, Education, and Training
Through its government contracting programs, SBA works to create an environment for maximum
participation by small, disadvantaged, and women-owned businesses in Federal Government contract
awards. These programs include, among others, the Historically Underutilized Business Zone
(HUBZone) Empowerment Contracting program, and the Small Disadvantaged Business (SDB)
Certification program. SBA also negotiates with other Federal agencies to establish procurement goals
for contracting with small, small disadvantaged, women-owned, service-disabled-veteran-owned, and
HUBZone small businesses. The current government-wide goal is for small businesses to receive
23 percent of the total value of prime contracts awarded each fiscal year.

SBA also manages the Section 8(a) Business Development program. This program was established to
provide business development assistance to small businesses owned by socially and economically
disadvantaged individuals and to help them access the multi-billion dollar Federal procurement market.

In addition, SBA provides assistance to existing and prospective small businesses through a variety of
counseling and training services offered by partner organizations. Among these are Small Business
Development Centers (SBDCs), the Service Corps of Retired Executives (SCORE), and Women’s
Business Centers (WBCs). Most of these are grant programs that require effective and efficient
management, outreach, and service delivery.

A High Percentage of Approved HUBZone Applicants Are Subsequently Decertified

The OIG continues to be concerned about SBA’s efforts to ensure that only eligible firms participate in
the HUBZone program. This program provides Federal contracting assistance to qualified small
                                            businesses located on Indian reservations and in areas where
In 2003 the OIG reviewed the                high unemployment rates or low-income levels predominate.
[HubZone] program and found that            In 2003, the OIG reviewed the program and found that controls
controls were inadequate to ensure          were inadequate to ensure that only eligible firms were
that only eligible firms were certified     certified and remain certified. The OIG recommended that
and remain certified.                       SBA implement a plan to ensure that an adequate number of
                                            participating companies are examined to ensure their
eligibility. A program examination plan was subsequently developed and implemented, and the Agency
reported that final action on the OIG’s recommendation was completed in November 2004.

During this reporting period, the OIG conducted a follow-up review and found that, while eligibility
examination and recertification processes had been
implemented, the results of those processes contrasted                            …while examination and
sharply with the relatively high 70 percent approval rate of            recertification processes had been
initial applications. Specifically, we found that: (1) over              implemented, the results of those
56 percent of firms were decertified or proposed for                processes contrasted sharply with the
decertification as a result of program examinations; (2) over     relatively high 70 percent approval rate
81 percent of firms were decertified or proposed for                                 of initial applications.
decertification as a result of the 3-year recertification
process; (3) firms proposed for decertification as a result of program examinations were not processed
timely; (4) recordkeeping practices related to the program examination and recertification processes were
lacking; (5) a request to the Federal Acquisition Regulation Council to revise HUBZone contract


                                                     15
                              Significant OIG Activities

certifications was not being processed in a timely manner; and (6) system modification requests in the
Federal Procurement Data System-Next Generation (FPDS-NG) needed to measure HUBZone program
performance were not implemented. While the implementation actions in findings 5 and 6 are outside of
SBA’s direct control, SBA needs to monitor progress to encourage timely implementation.

We recommended that SBA improve recordkeeping, management, and monitoring of the HUBZone
program. The Associate Administrator for the HUBZone program expresses concerns about some of the
OIG’s conclusions, but generally agreed with the report’s recommendations.

Loophole Allows Company Owned by Non-Disadvantaged Individual to Obtain 8(a) Contracts

The OIG received an anonymous complaint regarding the owner of a company in the 8(a) Business
Development program. To be eligible for the program, participant owners need to be both socially and
economically disadvantaged. An economically disadvantaged individual’s ability to compete is impaired
due to diminished capital and credit opportunities. Among other things, after admission to the program,
the owner’s net worth must be less than $750,000 to be considered economically disadvantaged.

While researching this complaint, the OIG determined that the company’s owner was the future
beneficiary of a trust, a portion of which was valued at well over
$750,000. SBA was unaware of the trust’s existence when                   Despite the fact that capital and
making initial and continuing eligibility determinations for the       credit opportunities were available
company. The trust had provided the owner with $100,000 in                 to the owner, the trust was not
capital and the company with $865,000 in credit. Despite the                  considered a current asset…
fact that capital and credit opportunities were available to the
owner, the trust was not considered a current asset since the company’s owner did not have access to the
funds without the trustees’ authorization. A loophole exists in SBA’s regulations because the trust was
This loophole allowed a company         not considered an asset. This loophole allowed a company owned
owned by…a non-disadvantaged            by an individual who had access to capital and credit (i.e., a non-
person…to obtain 8(a) contracts.        disadvantaged person) to obtain 8(a) contracts. Participation by
                                        non-disadvantaged individuals reduces the opportunities available
to those who are legitimately disadvantaged, diverts the energy and efforts of the SBA, and could
undermine public support for the program.

The OIG recommended that the Agency perform a review to reassess the owner’s economically
disadvantaged status after he receives an upcoming payment from the trust, determine whether contingent
assets such as trusts should be considered when assessing economic disadvantage, and determine whether
any regulation changes are needed to address this issue. The Agency agreed to implement the
recommendations.

Company Inappropriately Awarded 8(a) Contract

In response to another complaint, the OIG reviewed a
sole source 8(a) set aside contract awarded to a dredging           …the company violated SBA’s small
company to determine if the contract was awarded and          business procurement requirements, failed
performed in compliance with 8(a) Business                   to comply with the terms of its contract, and
Development program laws and regulations. The review                 provided inaccurate information…
disclosed that the company did not perform the required



                                                    16
                              Significant OIG Activities

percentage of work or meet the applicable size standard for the contract in question. Therefore, the
company violated SBA’s small business procurement requirements, failed to comply with the terms of its
contract, and provided inaccurate information to the Federal Government in order to obtain the dredging
contract. We recommended that SBA initiate termination proceedings and immediately suspend the
company from the 8(a) Business Development program, which the Agency agreed to do.

Businesses Make Illegal Payments to Obtain 8(a) and Other Contracts

An advantage of being a Section 8(a) firm is the ability to receive sole source government contracts, i.e.,
contracts that are awarded without competition from other vendors. Unfortunately, bribery is sometimes
used to obtain 8(a) and regular business contracts.

                                          A joint SBA OIG, General Services Administration (GSA) OIG,
The SBA official was found guilty         and FBI investigation found that an 8(a) contractor and president
of illegally receiving bribes.            of an engineering corporation made monthly cash payments
                                          totaling over $30,000 to the head of the 8(a) division in an SBA
district office from 2000 to 2003. In return, the SBA official used his authority to award over $16 million
in SBA 8(a) sole source contracts to the 8(a) firm. The SBA official was found guilty of illegally
receiving bribes.

Moreover, a joint SBA OIG and GSA OIG investigation revealed that the same 8(a) contractor made
approximately $31,000 in illegal payments to a former manager of a firm operating restaurant franchises.
The payments were made in exchange for the restaurant firm manager awarding the engineering
corporation more than $1 million in electrical contracts. In addition, the attorney for the engineering
corporation’s president interfered with and obstructed the investigation into illegal kickback payments
made by his client.

The engineering corporation was sentenced to 4 years probation, a $150,000 fine and a $400 special
assessment fee, and was ordered to initiate a compliance program and an audit. The president of the
corporation was sentenced to 12 months home confinement with electronic monitoring, 4 years probation,
400 hours of community service, a $150,000 fine, and a $100 special assessment fee. The president’s
attorney was sentenced to 33 months in prison, 3 years supervised probation, 120 hours of community
service, a $300 special assessment fee, and the surrender of his law license. Finally, the former manager
of the restaurant firm was sentenced to 1 year and 1 day imprisonment, 2 years of supervised release, and
a $100 special assessment fee.

Inspector General Testifies on Small Business Contracting

On July 12, 2006, the Inspector General testified before the Senate Committee on Small Business and
Entrepreneurship regarding problems with governmental procurement activity intended for small
businesses. The Small Business Act provides that 23
percent of all government contracts be awarded to small               …reports have shown that many
businesses every year. To meet this goal, every agency        contracts that are counted towards these
individually negotiates annual goals for small business         small business goals are actually being
contracts with SBA. However, a number of Federal                   performed  by firms that do not meet
reports have shown that many contracts that are counted          SBA’s criteria to be considered small.
towards these small business goals are actually being



                                                    17
                               Significant OIG Activities

performed by firms that do not meet SBA’s criteria to be considered small. The Inspector General
testified that this was due to three factors: (1) regulatory loopholes that allow this miscounting; (2) errors
by government contracting personnel; and (3) fraud or negligence by companies in attempting to obtain
small business set aside contracts. His testimony also focused on the need for regulatory and legislative
changes to address these challenges, and the need for SBA to take a more aggressive approach towards
working with other agencies to eliminate these flaws.

Multi-Agency Probe Examines Federal Contracting Abuse

Because some firms commit fraud to gain access to the lucrative Federal contracting market, ongoing
investigations are being conducted by multiple Federal agencies. In one case, the president of two
construction firms submitted false references to the U.S. Coast Guard to obtain a HUBZone contract for
one of the firms, which was a HUBZone certified company at the time. He pled guilty to making a
material false statement and was sentenced to 3 years probation and a $5,000 fine.

OIG Establishes a Small Business Procurement Integrity Task Force

The OIG has established a task force made up of auditors, investigators and attorneys to focus on the
issues of integrity in small business contracting and accuracy of reporting by Federal agencies on small
business procurement activity. The Task Force, which is headed by the Deputy Inspector General, was
formed, in part, in response to the numerous complaints that have been received over the years regarding
ineligible businesses obtaining small business contracts. In addition, a significant number of large
businesses were recently reported as receiving small business awards in the Federal Procurement Data
System–Next Generation (FPDS–NG). The OIG Task Force will coordinate and focus audit and
investigative efforts to identify reasons for, and taking appropriate actions to deter, agency misreporting
and to identify fraud or lack of due diligence by contractors in bidding on small business contracts. This
task force is reviewing complaints and past size determinations that found businesses to be other than
small, and identifying issues for future audits.

OIG Requests Change in Federal Sentencing Guidelines

The Inspector General, joined by the SBA Associate Deputy Administrator for Government Contracting
and Business Development, wrote to the United States Sentencing Commission requesting a change in the
Federal Sentencing Guidelines. The letter asked the Commission to revise the sentencing guidelines to
include provisions relating to the Government’s loss when a contractor misrepresents either that it meets
small business criteria or is disadvantaged in order to wrongfully obtain a set-aside government contract.

This initiative is an effort to address a longstanding problem in seeking prosecutions for such fraud. The
sentencing guidelines provide that, in determining the extent of loss to the Government, the value of the
goods or services the Government received must be subtracted
from the amount the Government paid as a result of fraud.             This initiative is an effort to address a
Unfortunately, in small or disadvantaged contract fraud cases,             longstanding problem in seeking
this analysis results in no governmental loss because the                       prosecutions for such fraud.
Government has obtained the goods or services that it
contracted for. Accordingly, some prosecutors have been reluctant to prosecute these types of cases. The
letter requested a revision to the sentencing guidelines so that, in such cases, the loss to the Government
would be considered equal to the amount paid to the contractor. Similar provisions already exist to



                                                      18
                               Significant OIG Activities

address other criminal wrongdoing, such as violations of the Davis Bacon Act. Federal prosecutors have
advised that this change would make it more likely that size and disadvantaged status fraud cases would
be accepted for prosecution, thus deterring such fraudulent activity.

OIG Reports on SBA’s Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act requires the OIG to report to Congress on a semi-annual basis
regarding the Agency’s use of its authority in connection with cosponsorships and fee-based
Administration-sponsored events. SBA’s Office of Strategic Alliances provided information to the OIG
related to cosponsorships, including the names, dates, and locations of the cosponsorships, and names of
cosponsors. As shown in Appendix IX, between April 1 and September 30, 2006, there were 60
cosponsorships. SBA reported that it did not conduct any fee-based Administration-sponsored events
during this period.

Legislation Requires Approval of SBDC Surveys

Section 21(a)(7) of the Small Business Act imposes restrictions on the disclosure of information
regarding individuals or small businesses that have received assistance from an SBDC, and further
restricts the Agency’s use of such information. The provision also requires the Agency to issue
regulations regarding disclosures of such information for use in conducting financial audits or SBDC
client surveys. In addition, paragraph 21(a)(7)(C)(iii) states that, until the issuance of such regulations,
any client survey and the use of such information shall be approved by the IG who shall include such
approval in the OIG’s Semiannual Report.

The Agency reported that there were no SBDC surveys requiring OIG approval during this reporting
                                       period. Although the statutory provision was enacted in
The Agency reported that there were    December 2004, the Agency has not yet issued the required
no SBDC surveys requiring OIG          regulations regarding disclosures of client information.
approval during this reporting period. Agency officials advised that they continue to work on the
                                       regulations and expect to have them in clearance by the first
                                       quarter of FY 2007.




                                                    19
                              Significant OIG Activities

                                    Agency Management
The Chief Financial Officers Act of 1990 requires each Federal agency to have its financial statements
audited annually. A key Office of Management and Budget (OMB) initiative is to have agencies improve
their financial management activities, including providing financial statements and financial performance
information in a more timely manner. For several years, the OIG, GAO, and external auditors all noted
weaknesses in SBA’s financial management and reporting controls that resulted in SBA being unable to
produce reliable, timely, and accurate financial information. SBA has responded by making sound
financial management and reporting a top priority, and has taken steps to make improvements. These
efforts have focused primarily on improving SBA’s models for estimating subsidy costs, improving
controls over financial statement preparation, and correcting accounting errors in prior periods related to
loan sales and subsidy cost allowances. SBA’s financial management and reporting controls, however,
continue to need improvement in the areas of funds management, financial accounting transactions,
review of account balances, financial statement preparation, and quality assurance. The Agency must also
ensure it complies with laws and regulations related to its financial management and reporting
responsibilities, and ensure that it can implement new reporting and internal control requirements in an
effective and timely manner.

SBA Lacks Consistent Method for Assessing the Risk of Improper Payments

The Improper Payments Act of 2002 requires Federal agencies to report on erroneous payments and the
progress made in reducing them. The OIG examined the Agency’s efforts to identify, correct, and report
on erroneous payments and determined whether management could rely on the existing erroneous
payment activities to provide several of the basic
components of an effective internal control program required  …although the Agency was performing
by OMB Circular A-123. We found that, although the               improper payment reviews, it had not
Agency was performing improper payment reviews, it had               established uniform Agency-wide
not established uniform Agency-wide processes and                processes and procedures for the full
procedures for the full range of erroneous payment risk               range of erroneous payment risk
assessment and reporting activities. For example, program          assessment and reporting activities.
offices did not consistently identify high-risk areas of
vulnerability and did not maintain documentation to support whether their programs were susceptible to
erroneous payments. We recommended, and the Agency agreed, to engage in more systematic risk
assessments and to require program offices to submit complete improper payment estimates and status
reports to improve Agency reporting.

SBA Made Limited Progress in Implementing a Strategy for Building a Skilled Acquisition
Workforce

An OIG review of SBA’s implementation of OMB policy directives pertaining to development of its
                                         acquisition workforce found that SBA had not completed the
SBA had not identified its acquisition   basic steps necessary to comply with OMB policy. SBA had
workforce, collected experiential and    not identified its acquisition workforce, collected experiential
training information…or assessed         and training information on its workforce, or assessed
workforce skill levels.                  workforce skill levels. Consequently, SBA’s progress is
                                         behind that of other agencies. The OIG reported that SBA will
have difficulty meeting the required deadline for having complete and current training, education, and


                                                    20
                               Significant OIG Activities

experience data on its employees in the Federal Acquisition Institute’s database. Further, without a plan
detailing how SBA will meet OMB’s requirements, the Agency risks not having a highly-qualified and
well-trained acquisition staff that possess the core competencies specified by OMB.

The OIG recommended, and the Agency agreed to develop a detailed plan to assist the Agency in
ensuring compliance with OMB requirements.

Contract Awards for IT Services Were Not Properly Re-competed.

As a result of two anonymous complaints, the OIG conducted an audit of contract awards for IT services.
We found that SBA did not properly plan for the re-competition
of replacement contracts for IT services as the original contracts …SBA did not properly plan for the
approached their expiration dates. As a result, the original             re-competition of replacement
contracts were extended beyond their performance periods.                    contracts for IT services…
While this was not in violation of the Federal Acquisition Regulations or SBA policies because the
services were deemed mission-critical, the extensions were clearly not the best option, nor a desirable
contracting practice.

In addition, our audit report expressed concern that SBA would not complete the steps needed to re-
compete the interim contracts before their expiration in March 2007. The OIG also found that the
                                     awardees could have difficulty meeting certain 8(a) requirements
…the awardees could have             related to the amount of work required to be performed due to their
difficulty meeting certain 8(a)      teaming relationships with much larger firms. Finally, the OIG
requirements…                        found that SBA should have requested a current size certification for
                                     one firm prior to executing a task order for services as it appeared the
firm no longer met the applicable size standard.

The OIG recommended that SBA’s Chief Operating Officer ensure that a plan is developed for re-
competing the four interim replacement contracts prior to their expiration on March 31, 2007, and that
increased scrutiny be provided over the awardees to ensure continued compliance with 8(a) regulations.

SBA Improperly Accepted Two Cash Gifts Prior to Obtaining a Conflict of Interest Determination

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General who shall report his findings to Congress. During this
reporting period, SBA received six cash gifts totaling $10,700 for a Small Business Week awards event.
Contrary to SBA policy, two of the cash gifts were accepted by district offices without a conflict of
interest determination being made by SBA’s Office of General Counsel (OGC) for each donor. As of our
reporting deadline, we had requested that OGC make a conflict of interest determination for the two
donors and those determinations were still pending.

Number and Percentage of Overdue Management Decisions and Final Implemented Actions Have
Decreased

The IG Act requires that Federal agencies make management decisions on all findings and
recommendations within a maximum of 6 months of report issuance. Such decisions can take several



                                                     21
                             Significant OIG Activities

forms. Program officials may agree, disagree, or seek alternative actions to the recommendations. As of
September 30, 2006, 25 management decisions on recommendations in OIG reports were overdue –
approximately 41 percent of all pending management decisions. This represents a slight decrease since
March 31, 2006 in the number and percentage of overdue management decisions. The Offices of Capital
Access, Government Contracting and Business Development, Management and Administration, and
Strategic Alliances were responsible for over half of the overdue management decisions.

A management decision includes a target date for implementing the agreed-to management decision. The
number and percentage of recommendations with overdue final implemented actions has decreased – by
7 percent—since March 31, 2006. As of the end of this reporting period, 46 percent of all pending final
actions were overdue. The Office of the Chief Information Officer and the Office of Management and
Administration were responsible for almost half of the overdue final actions.




                                                  22
                               Significant OIG Activities

                            Other Significant OIG Activities
Character Screening Diminishes Potential Program Fraud

The OIG’s Office of Security Operations ensures that participants in programs involving business loans,
disaster assistance loans, Section 8(a) certifications, surety bond guarantees, SBICs, and certified
development companies meet SBA character standards through name checks and, where appropriate,
fingerprint checks. During this reporting period, the OIG processed 2,257 external name check requests
for these programs.

Using data from its on-line connection with the FBI, the OIG also refers applicants who appear ineligible
because of character issues to program officials for adjudication. During this reporting period, OIG
                                              referrals resulted in SBA business loan program managers
…OIG referrals resulted in SBA business       declining 36 applications totaling over $12.6 million, and
loan program managers declining 36            disaster loan program officials declining 140 applications
applications totaling over $12.6 million,     totaling nearly $8.1 million. Over $280.5 million in loans
and disaster loan program officials           have been declined during the last 10 years due to
declining 140 applications totaling nearly    character eligibility issues, thus making credit available to
$8.1 million.                                 other applicants who had no such issues.

In addition, based on OIG efforts during this semiannual period, the Section 8(a) program declined 5
applications for admission. The OIG also initiated 161 background investigations and issued 26 security
clearances for Agency employees and contractor personnel required to have clearances, adjudicated 108
background investigative reports, and coordinated with SBA’s Office of Disaster Assistance to adjudicate
334 derogatory background investigative reports. Finally, the OIG processed 1,654 internal name check
requests for Agency activities such as success stories, Small Business Person of the Year nominees, and
disaster assistance new hires.

OIG Recommends Debarments

The OIG believes that it is in the public interest to debar parties with a history of fraud or who otherwise
lack business integrity from conducting business with the Federal Government. Accordingly, the OIG
has adopted a proactive program to identify current SBA program participants for whom debarment
would serve the public interest and make debarment recommendations to the SBA.

The OIG recommended that SBA debar two individuals for making false statements made in connection
with an SBA-guarantied loan in excess of three quarters
of a million dollars. The OIG’s investigation determined             … individuals failed to disclose that
that the individuals failed to disclose that approximately  approximately 70 percent of the money they
70 percent of the money they claimed they were               claimed they were injecting into the project
injecting into the project from their own funds was               from their own funds was borrowed…
borrowed and would have to be repaid. Use of borrowed
funds was prohibited by the loan documents. As a result of the excessive debt, the loan defaulted and the
borrower filed for bankruptcy months after closing the loan, resulting in considerable losses of taxpayer
dollars. The Agency agreed with the OIG recommendation and debarred both individuals for 3 years.




                                                    23
                              Significant OIG Activities

The OIG also recommended the debarment of a borrower who fraudulently obtained two SBA-guarantied
loans valued at over $1.2 million. To support his loan applications, the individual submitted false
information and fictitious documents to SBA lenders about his personal property value and net worth.
The OIG’s investigation resulted in the individual pleading guilty to multiple counts of bank fraud,
submitting false loan applications, and money laundering in violation of 18 U.S.C. §§ 1344, 1014, and
1957. The Agency was considering the OIG’s recommendation at the close of the reporting period.

OIG Reviews Agency Proposal to Centralize 7(a) Loan Processing

The OIG plays an important role in reviewing SBA’s proposed regulations and initiatives. The OIG
reviews proposals to, among other things, identify program inefficiencies and areas susceptible to fraud,
waste, and abuse. The OIG’s substantive comments frequently lead to marked improvement in legislation
and regulations proposed by SBA or affecting SBA programs, new and revised Agency operating
procedures, Agency reorganizations, and other matters requiring the Administrator’s signature.

After reviewing an Agency proposal to centralize all 7(a) guaranty loan processing into two Loan
Processing Centers, the OIG expressed concerns about the absence of adequate staffing analysis, and the
                                               absence of important planning elements in the proposed
The OIG believed that the initial              centralization documents. The OIG believed that the initial
proposal did not adequately address            proposal did not adequately address review and processing
review and processing of 7(a) loans            of 7(a) loans with reduced staffing. Furthermore, the OIG
with reduced staffing.                         was concerned that reduced loan processing times could
                                               result in poor loan origination decisions and more defaulted
loans. In response to the OIG’s initial concerns and comments, the Agency revised the proposal to
provide clearer rationale and analysis for the planned changes.




                                                    24
                                                     Statistical Highlights

                                          6-Month Productivity Statistics
                                     April 1, 2006, through September 30, 2006

Summary of Office-Wide Dollar Accomplishments                                                                                                         Totals

A.   Potential Investigative Recoveries and Fines ......................................................................... $9,993,916
B.   Loans/Contracts Not Made as Result of Investigations............................................................. $110,000
C.   Loans Not Made as a Result of Name Checks ..................................................................... $20,715,939
D.   Disallowed Costs Agreed to by Management ........................................................................... $107,261
E.   Recommendations that Funds Be Put to Better
        Use Agreed to by Management....................................................................................................... $0

      Total..................................................................................................................................... $30,927,116

Efficiency and Effectiveness Activities Related to Audits and Other Reports

A.  Reports Issued ...................................................................................................................................... 15
B.  Recommendations Issued ..................................................................................................................... 48
C.  Dollar Value of Costs Questioned............................................................................................. $373,258
D.  Dollar Value of Recommendations that Funds
        Be Put to Better Use....................................................................................................................... $0
E. Collections as a Result of Questioned Costs ............................................................................... $529,488

Audit and Report Follow-up Activities

A. Recommendations Closed .................................................................................................................... 52
B. Disallowed Costs Agreed to by Management ........................................................................... $107,261
C. Dollar Value of Recommendations that Funds Be Put to Better Use
       Agreed to by Management............................................................................................................. $0
D. Unresolved Recommendations............................................................................................................. 37

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation Reviewed ........................................................................................................................... 28
B. Regulations Reviewed .......................................................................................................................... 11
C. Standard Operating Procedures and Other Issuances* Reviewed ........................................................ 44

      Total..................................................................................................................................................... 83

 * This category includes policy notices, procedural notices, Administrator’s action memoranda, and other Agency
   initiatives, which frequently involve the implementation of new programs and policies.




                                                                               25
                                                     Statistical Highlights

                                          6-Month Productivity Statistics
                                     April 1, 2006, through September 30, 2006

Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases................................................................................................................. 32
B.   Convictions from OIG Cases ................................................................................................................ 19
C.   Cases Opened ........................................................................................................................................ 31
D.   Cases Closed ......................................................................................................................................... 24

Investigations Recoveries and Management Avoidances

A. Potential Recoveries and Fines as a Result of
       OIG Investigations........................................................................................................... $9,993,916
B. Loans/Contracts Not Approved as a Result of OIG Investigations............................................ $110,000
C. Loans Not Approved as a Result of the Name
       Check Program .............................................................................................................. $20,715,939

      Total..................................................................................................................................... $30,819,855

SBA Personnel Actions Taken as a Result of Investigations

A.   Dismissals ............................................................................................................................................... 0
B.   Resignations/Retirements........................................................................................................................ 0
C.   Suspensions ............................................................................................................................................. 0
D.   Reprimands ............................................................................................................................................. 0
E.   Other ........................................................................................................................................................ 1

Program Actions Taken as a Result of Investigations

A.   Debarments Recommended to the Agency ............................................................................................. 3
B.   Debarments Pending at the Agency ........................................................................................................ 7
C.   Proposed Debarments Issued by the Agency .......................................................................................... 7
D.   Final Debarments Issued by the Agency................................................................................................. 5

OIG Hotline Operation Activities

A.   Total Fraud Line Calls/Letters ............................................................................................................ 160
B.   Total Calls/Letters Referred to Investigations Division ........................................................................ 11
C.   Total Calls/Letters Referred to SBA or Other Federal Investigative Agencies ...................................... 4
D.   Total Calls/Letters Referred to Other Entities....................................................................................... 23
E.   Total Calls/Letters Needing No Action ............................................................................................... 122




                                                                                26
                                                    Statistical Highlights

                                      Full Year Productivity Statistics
                                 October 1, 2005, through September 30, 2006

Office-wide Dollar Accomplishments                                                                                                                  Totals

A.   Potential Investigative Recoveries and Fines ....................................................................... $29,665,125
B.   Loans/Contracts Not Made as Result of OIG Investigations .................................................... $116,200
C.   Loans Not Made as Result of Name Checks ........................................................................ $42,179,311
D.   Disallowed Costs Agreed to by Management ........................................................................... $563,463
E.   Recommendations that Funds Be Put to Better
         Use Agreed to by Management............................................................................................. $25,000

     Total..................................................................................................................................... $72,549,099

Efficiency and Effectiveness Activities

A. Reports Issued ...................................................................................................................................... 35
B. Recommendations Issued ................................................................................................................... 108
C. Dollar Value of Costs Questioned............................................................................................. $854,624
D. Dollar Value of Recommendations that Funds
       Be Put to Better Use....................................................................................................................... $0
E. Collections as a Result of Questioned Costs .......................................................................... $1,199,443

Follow-up Activities

A. Recommendations Closed .................................................................................................................. 122
B. Disallowed Costs Agreed to by Management ............................................................................. 562,463
C. Dollar Value of Recommendations that Funds Be Put to Better Use
       Agreed to by Management.................................................................................................... $25,000
D. Unresolved Recommendations........................................................................................................... 136

Legislation/Regulations/SOPs/Other Reviews

A. Legislation Reviewed ........................................................................................................................... 35
B. Regulations Reviewed .......................................................................................................................... 24
C. Standard Operating Procedures and Other Issuances* Reviewed ...................................................... 102

     Total................................................................................................................................................... 161

** This category includes policy notices, procedural notices, Administrator’s action memoranda, and other
   communications, which frequently involve the implementation of new programs and policies.




                                                                             27
                                                    Statistical Highlights

                                      Full Year Productivity Statistics
                                 October 1, 2005, through September 30, 2006

Summary of Indictments, Convictions, and Case Activity

A. Indictments from OIG Cases...................................................................................................................55**
B. Convictions from OIG Cases ..................................................................................................................32**
C. Cases Opened ......................................................................................................................................... 59
D. Cases Closed .......................................................................................................................................... 53

Summary of Recoveries and Management Avoidances

A. Potential Recoveries and Fines as a Result of
       OIG Investigations......................................................................................................... $29,665,125
B. Loans/Contracts Not Approved as a Result of OIG Investigations........................................... $116,200
C. Loans/Contracts Not Approved as a Result of the Name
       Check Program .............................................................................................................. $42,179,311

     Total..................................................................................................................................... $71,960,636

SBA Personnel Actions Taken as a Result of Investigations

A.   Dismissals............................................................................................................................................... 0
B.   Resignations/Retirements ....................................................................................................................... 0
C.   Suspensions ............................................................................................................................................ 0
D.   Reprimands............................................................................................................................................. 0
E.   Other....................................................................................................................................................... 1

Program Actions Taken as a Result of Investigations

A.   Debarments Recommended to the Agency .......................................................................................... 11
B.   Debarments Pending at the Agency ....................................................................................................... 7
C.   Proposed Debarments issued by the Agency........................................................................................ 13
D.   Final Debarments issued by the Agency .............................................................................................. 12

Summary of OIG Hotline Operation

A.   Total Fraud Line Calls/Letters............................................................................................................ 408
B.   Total Calls/Letters Referred to Investigations Division ....................................................................... 39
C.   Total Calls/Letters Referred to SBA or Other Federal Investigative Agencies.................................... 31
D.   Total Calls/Letters Referred to Other Entities ..................................................................................... 54
E.   Total Calls/Letters Needing No Action .............................................................................................. 284

** Includes four indictments/convictions that occurred in the prior fiscal year but were not previously reported.




                                                                              28
                                       Appendices

                                           Appendix I
                                      OIG Reports Issued
                           April 1, 2006, through September 30, 2006

                                               Report     Issue        Questioned    Funds for
                   Title
                                               Number     Date           Costs       Better Use
Disaster Loans
DCMS Upgrade Needs a System Certification
                                                6-21     4/27/06               $0            $0
and Accreditation.
DCMS- Performance Test Plans                    6-24      6/8/06               $0            $0
Preliminary Assessment of Controls over the
Coordination of Disaster Assistance Benefits
                                                6-28    9/25/2006              $0            $0
Distributed by Mississippi Development
Authority’s Grant Assistance Program
Loan Disbursements Following the
                                                6-29     9/19/06               $0            $0
2005 Gulf Coast Hurricanes
Flexible Staffing of SBA Personnel During
Times of Emergencies or Catastrophes to Aid     6-31     9/25/06               $0            $0
Disaster Loan Processing
   Program Subtotal                                 5                          $0            $0
Small Business Access to Capital
Audit of an SBA Guarantied Loan                 6-22     5/17/06          $373,258           $0
Survey of the Quality Assurance Review
                                                6-26     7/12/06               $0            $0
Process
Management Advisory Report- Policies and
Procedures for the SBAExpress and               6-34     9/29/06               $0            $0
Community Express Loan Programs
Audit of Deficiencies in OFA’s Purchase
                                                6-35     9/29/06               $0            $0
Review Process for Backlog Loans
   Program Subtotal                                 4                    $373,258            $0
Small Business Development, Contracting, Education, and Training
HUBZone Program Examination and Re-
                                                6-23     5/23/06               $0            $0
certification Processes
Concerns Related to a Company’s
Compliance with 8(a) Business Development       6-27      9/8/06               $0            $0
Program Requirements
Economically Disadvantaged Status of an 8(a)
                                                6-32     9/25/06               $0            $0
Program Participant’s Owner
SBA’s Acquisition Personnel Education and
                                                6-33     9/29/06               $0            $0
Training
   Program Subtotal                                 4                          $0            $0




                                               29
                                          Appendices

                                            Appendix I
                                       OIG Reports Issued
                            April 1, 2006, through September 30, 2006

                                              Report       Issue        Questioned    Funds for
                    Title
                                              Number       Date           Costs       Better Use
Agency Management
SBA’S Implementation of the Improper
                                                6-25      6/13/06               $0            $0
Payments Information Act
Office of the Chief Information Officer
(OCIO) Contract Awards for Agency               6-30      9/25/06               $0            $0
Mission-Critical Services
   Program Subtotal                              2                               $0           $0
   TOTALS (all programs)                         15                       $ 373,258           $0




                                               30
                                            Appendices

                                            Appendix II
                                  OIG Reports with Questioned Costs

                                                          Recommend       Questioned        Unsupported
                                           Reports
                                                            -ations*       Costs**            Costs**
 A.    No management decision made
                                               7               9             $4,134,459         $3,086,077
       by March 31, 2006
       Issued during this reporting            1               1               $373,258                  $0
 B.
       period
       Universe from which
       management decisions could be
                                               8               10            $4,507,717         $3,086,077
       made in this reporting period –
       Subtotals
       Management decision(s) made
 C.                                            3               3             $2,288,386         $2,181,125
       during this reporting period
       (i) Disallowed costs                    2               2               $107,261                 $0
       (ii) Costs not disallowed               1               1                     $0         $2,181,125
       No management decision
 D.                                            5               7             $2,219,331          $904,952
       made by September 30, 2006

* Reports may have more than one recommendation.
**Questioned costs are those which are found to be improper, whereas unsupported costs may be proper but lack
documentation.


                                        Appendix III
                OIG Reports with Recommendations that Funds Be Put to Better Use

                                                                                        Recommended
                                                                    Recommend-
                                                      Reports                          Funds For Better
                                                                      ations*
                                                                                             Use
       No management decision made by
 A.                                                        1             1
       March 31, 2006                                                                            $293,823
 B.    Issued during this reporting period                 0             0                               $0
       Universe from which management
       decisions could be made in this reporting           1             1
       period – Subtotals                                                                        $293,823
       Management decision(s) made during this
 C.                                                        0             0
       reporting period                                                                                  $0
       (i) Recommendations agreed to by SBA
                                                           0             0
            management                                                                                   $0
       (ii) Recommendations not agreed to by
                                                           0             0
            SBA management                                                                               $0
       No management decision made by
 D.                                                        1             1
       September 30, 2006                                                                        $293,823

*Reports may have more than one recommendation.


                                                     31
                                               Appendices

                                             Appendix IV
                           OIG Reports with Non-Monetary Recommendations

                                                                          Reports          Recommendations
  A.    No management decision made by September 30, 2005                     26                    83
  B.    Issued during this reporting period                                   13                    47
        Universe from which management decisions could be
        made in this reporting period – Subtotals                             39                   130
        Management decision(s) made (for at least one
  C.    recommendation in the report) during this reporting
        period                                                                17                    55
        No management decision made (for at least one
  D.    recommendation in the report) by
        March 31, 2006 *                                                      29                    75

*Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may
have recommendations that fall under both C. & D.




                                                        32
                                         Appendices

                                          Appendix V
                          OIG Reports From Prior Semiannual Periods
                             with Overdue Management Decisions
                                   as of September 30, 2006

                                         Report     Date
                Title                                                          Status
                                         Number    Issued
Impact of Loan Splitting on Borrowers                           Agency response does not fully
                                          2-31     9/30/02
and SBA                                                         address the recommendation.
Audit of SBA's Information Systems                              Agency has not responded to one
                                          4-19     4/29/04
Controls FY 2003                                                recommendation made in the report.
Audit of San Francisco District Office                          Management has not responded to one
Administrative Activities Related to                            recommendation made in the report.
                                          4-27     6/29/04
the Silicon Valley Small Business
Development Center
Audit of an SBA-Guarantied Loan to                              Agency response does not fully
Elatec Technology Corporation and         4-40     9/13/04      address the recommendation.
HK Equipment, Inc.
Audit of Early Defaulted Loan to Big                            Management has not responded to one
                                          4-43     9/17/04
Z Travel Center                                                 recommendation made in the report.
Audit Report – Summary Audit of                                 Management has not responded to two
SBA-Sponsored and Cosponsored             4-44     9/24/04      recommendations made in the report.
Events Conducted by District Offices
Review of Indirect Cost Rate of the                             Management has not responded to one
                                          5-03     10/25/04
Walsh Group, P.A.                                               recommendation made in the report.
Single Audit of the Mountain Made                               Management has not responded to
Foundation                                5-08         1/6/05   three recommendations made in the
                                                                report.
Review of a Cooperative Agreement                               Agency has not responded to one
                                          5-11     2/11/05
to HP Small Business Foundation                                 recommendation made in the report.
Defaulted 9/11 Disaster Loan to CLB                             Agency response does not fully
                                         CP 5-02 2/14/05
Publishers Inc.                                                 address the recommendation.
Audit of SBA's Information Systems                              One recommendation is in
                                          5-12     2/24/05
Controls FY 2004                                                management resolution.
SBA Small Business Procurement                                  Agency has not responded to one
Awards are Not Always Going to            5-14     2/24/05      recommendation made in the report.
Small Businesses
Review of the Mentor-Protégé                                    Agency has not responded to four
                                          5-18     4/18/05
Program                                                         recommendations made in the report.
Audit of the Contract Bundling                                  Agency has not responded to four
                                          5-20     5/20/05
Process                                                         recommendations made in the report.
Audit of the SBIC Liquidation Process                           Four recommendations are in
                                          5-22     7/28/05
                                                                management resolution.




                                                  33
                                         Appendices

                                          Appendix V
                          OIG Reports From Prior Semiannual Periods
                             with Overdue Management Decisions
                                   as of September 30, 2006

                                         Report     Date
                Title                                                        Status
                                         Number    Issued
Review of SBA Procedures for Cash                             Agency has not responded to three
                                          5-28     9/30/05
Gifts                                                         recommendations made in the report.
Independent Evaluation of SBA’s                               Agency has not responded to one
                                          6-01     10/7/05
Information Security Program                                  recommendation made in the report.
Single Audit of Greenpoint                                    Agency has not responded to one
                                          6-03     10/18/05
Manufacturing and Design Center                               recommendation made in the report.
Review of the 1502 Reporting Process                          Two recommendations made in the
                                          6-07     12/9/05
                                                              report are in management resolution.
SBA’s Information System Controls                             One recommendation made in the
for FY 2005                                                   report is in management resolution.
                                          6-08     12/22/05
                                                              Agency has not responded to one
                                                              recommendation made in the report.
SBA’s Administration of the                                   One recommendation made in the
Supplemental Terrorist Activity Relief    6-09     12/23/05   report is in management resolution.
(STAR) Loan Program
SBA’s FY 2005 Financial Statements                            Management has not responded to
Management Letter                         6-10     1/18/05    three recommendations made in the
                                                              report.
Human Capital Planning in SBA’s                               Agency has not responded to one
                                          6-13     3/02/06
Office of Financial Assistance                                recommendation made in the report.
Improvement is needed in Interface                            Management has not responded to one
Error Correction Between SBA’s            6-20     3/31/06    recommendation made in the report.
DCMS and FEMA’s NEMIS




                                                  34
                                              Appendices

                                            Appendix VI
                       OIG Reports Without Final Action as of September 30, 2006

                                                                                                Final
                                                                                    Date of
 Report                                                               Date                      Action
                                      Title                                       Management
 Number                                                              Issued                     Target
                                                                                   Decision
                                                                                                 Date
 43H0060       8(a) Continuing Eligibility Reviews                   9/30/94       12/30/94    10/30/02
      0-14     7(a) Service Fee Collections                          3/30/00        8/22/00    12/31/04
               SDB Certification Program Obligations and             6/30/00        3/30/01    9/30/02
      0-19
               Expenditures
               SBA’s Administration of MBELEDF                       9/30/00        3/26/01      **
      0-30
               Cosponsorship
      1-11     GPRA for the MSB & COD Program                        3/27/01        9/28/01    7/31/03
      1-16     SBA’s Follow-up on SBLC Examinations                  8/17/01        9/25/01      **
               Evaluation of SBA’s Computer Security
  A1-06
               Program                                               9/28/01        1/9/02        **
               SBA’s FY 2001 Financial Statements –                  4/12/02       12/12/02    9/30/03
      2-17
               Management Letter
               SBA’s Information Systems Controls – FY                   5/6/02      ***         **
      2-18
               2001
               SBA’s Oversight of the Fiscal Transfer Agent          1/30/03         ***         **
      3-08
               for the 7(a) Loan Program
      3-10     504 Loan Program Oversight                             2/6/03        10/1/03    6/30/05
      3-14     TEP Consulting, Inc.                                  3/14/03        4/10/03    12/31/03
               SBA’s Information System Controls for                 3/31/03          ***         **
      3-20
               FY 2002
               Microloan Program: Moving Toward
      3-26                                                           5/13/03         ***         **
               Performance Management
      3-30     Audit of an Early Defaulted Loan                      6/19/03       12/21/04    9/30/06
      3-33     SBIC Oversight                                         7/1/03         ***       4/30/05
      3-35     National Women’s Business Council                     7/28/03         ***          **
      4-09     Review of SBA Purchase Cards                          1/26/04       8/24/04     3/31/05
      4-13     Audit of an Early Defaulted Loan                       3/2/04        4/6/04     1/31/05

**      Target dates vary with different recommendations.
***     Management decision dates vary with different recommendations.




                                                       35
                                              Appendices

                                            Appendix VI
                       OIG Reports Without Final Action as of September 30, 2006

                                                                                                Final
                                                                                    Date of
 Report                                                               Date                     Action
                                      Title                                       Management
 Number                                                              Issued                    Target
                                                                                   Decision
                                                                                                Date
      4-15     SACS/MEDCOR: Ineffective and Inefficient                  3/9/04     5/11/04    9/30/05
               SBA’s Administration of the Procurement
      4-16     Activities of Asset Sale Due Diligence                3/17/04         ***         **
               Contracts and Task Orders
               SBA’s FY 2003 Financial Statements –                  3/23/04        5/14/04      **
      4-17
               Management Letter
               SBA’s Information Systems Controls – FY               4/29/05         ***         **
      4-19
               2003
               Business Development Provided by the 8(a)                 6/2/04     7/14/04      **
      4-22
               Business Development Program
               Audit of San Francisco District Office                                            **
      4-27     Administrative Activities Related to the Silicon      6/29/04       12/29/04
               Valley Small Center
      4-28     Audit of SBA-Guarantied Loan                           7/9/04        10/6/04    3/31/05
      4-29     Audit of an Early Defaulted Loan                      7/12/04        10/6/04    4/26/06
      4-32     Audit of SBA-Guarantied Loan                          7/29/04        10/6/04    3/31/05
               SBA’s Process for Complying with the FMFIA
      4-34                                                           7/29/04        9/9/04     4/30/05
               Reporting Requirements
               Single Audit of Federal Financial Assistance
      4-35     Program Service Corps of Retired Executives           8/03/04        1/12/05    6/30/05
               (SCORE)
      4-36     Audit of an Early Defaulted Loan                      8/10/04        10/6/04    3/31/05
               Memorandum Advisory Report – the Transfer
      4-39     of Operations to the National Guaranty                8/31/04         ***       9/30/05
               Purchase Center
               Audit of Selected SBA General Support
      4-41                                                           9/10/04         ***         **
               Systems
               SBA-Sponsored and Cosponsored Events
      4-44                                                           9/24/04         ***         **
               Conducted by District Offices

**      Target dates vary with different recommendations.
***     Management decision dates vary with different recommendations.




                                                       36
                                              Appendices

                                            Appendix VI
                       OIG Reports Without Final Action as of September 30, 2006

                                                                                            Final
                                                                                 Date of
 Report                                                               Date                  Action
                                      Title                                    Management
 Number                                                              Issued                 Target
                                                                                Decision
                                                                                             Date
               Advisory Memorandum Report- Independent
      5-02     Evaluation of SBA’s Information Security              10/7/04     2/4/05     9/30/05
               Program
               Review of Indirect Cost Rate of the Walsh
      5-03                                                          10/25/04     1/12/05    6/30/05
               Group, P.A.
               Review of the Small Disadvantaged Business
      5-04                                                           11/4/04     4/1/05       **
               Certification Program
               Memorandum Advisory Report – Pre-Demand
      5-09     and Demand Letters for Delinquent 9/11                1/11/05     3/8/05     7/10/05
               Disaster Loans
               Audit of SBA’s Information Systems Controls –
      5-12                                                           2/24/05      ***         **
               FY 2004
               SBA’s Continuity of Operations Planning
      5-17                                                           3/30/05     5/3/05       **
               Program
               SBA’s Administration of its Special
      5-23                                                           9/24/04      ***         **
               Appropriation Grant
               Criteria For Overcoming The Presumption of
      5-24                                                           9/28/05      ***         **
               Social Disadvantage Is Needed
      5-26     Audit of SBA-Guarantied Loan                          9/25/05     2/6/06     5/31/06
      5-28     Review of SBA Procedures For Cash Gifts               9/30/05     2/23/06    6/30/06
               Independent Evaluation Of SBA’s Information
      6-01                                                           10/7/05      ***         **
               Security Program
      6-07     Review of the 1502 Reporting Process                  12/9/05      ***         **
               SBA's Information Systems Controls For FY
      6-08                                                          12/22/05     8/14/06    9/29/06
               2005
      6-14     Audit of SBA-Guarantied Loan                           3/2/06     6/21/06     7/3/06
      6-16     Audit of SBA-Guarantied Loan                          3/20/06     4/24/06    6/30/06
      6-17     Audit of SBA-Guarantied Loan                          3/20/06     4/24/06    6/30/06

**      Target dates vary with different recommendations.
***     Management decision dates vary with different recommendations.




                                                       37
                                            Appendices

                                            Appendix VII
                                    Significant Recommendations
                             From Prior Semiannual Reporting Periods
                            Without Final Action as of September 30, 2006*

                                                                                                  Final
 Report          Date                                                            Management       Action
                                          Recommendation
 Number         Issued                                                           Decision Date    Target
                                                                                                   Date
43H006021       9/30/94     Establish procedures for determining                   10/30/94      10/30/02
                            whether Section 8(a) participants should no
                            longer be considered economically
                            disadvantaged based on their ownership
                            interest in their 8(a) firm, the equity and
                            market value of their primary residence, and
                            the net worth of their spouses.
   1-11         3/27/01     Ensure that 8(a) performance plans include              9/28/01      7/31/03
                            indicators for determining how effectively
                            and efficiently the Section 8(a) program is
                            operating.
   2-12         3/20/02     Develop a formal policy regarding effective             8/27/02      3/31/07
                            supervisory and enforcement actions for
                            Small Business Lending Companies.
   2-18         5/6/02      Develop an Agency-wide information                      6/28/02       3/1/05
                            security plan to establish and implement the
                            policies, procedures and practices for the
                            following: (1) full integration of the
                            information security approach and
                            implementation process; (2) coordination
                            among program offices to support their
                            security needs; (3) guidance to the program
                            office to implement information system
                            security controls; and (4) methods to
                            monitor the effectiveness of each part of
                            information technology security.
   3-08         1/30/03     Initiate a new procurement action for fiscal           12/10/03      3/31/06
                            and transfer agent (FTA) activities and
                            terminate the existing contract with the FTA
                            when a new contract can be enacted.
   3-08         1/30/03     Review FTA activities and identify contract            10/15/03      3/31/06
                            costs for fees and services. Report these
                            contract costs in proposed Master Reserve
                            Fund (MRF) financial statements so future
                            FTA contracts will have historical cost data
                            for comparison purposes.

* These are a subset of the universe of recommendations without final actions.



                                                      38
                                            Appendices

                                            Appendix VII
                                    Significant Recommendations
                             From Prior Semiannual Reporting Periods
                            Without Final Action as of September 30, 2006*

                                                                                                  Final
 Report          Date                                                            Management      Action
                                          Recommendation
 Number         Issued                                                           Decision Date   Target
                                                                                                  Date
   3-10         2/6/03      Design a review guide to incorporate                   10/01/03      6/30/06
                            performance aspects to address financial
                            risk, address the specific requirements of
                            the Section 504 loan program, and
                            incorporate a performance-driven scoring
                            system.
   3-33         7/1/03      Revise SOP on SBICs to ensure it includes               10/6/03      6/30/06
                            requirements to perform quarterly risk
                            assessments for capitally impaired SBICs,
                            include an analysis of potential for
                            repayment of outstanding leverage, and
                            determine what criteria should be used to
                            recommend an SBIC be transferred to
                            liquidation.
   3-33         7/1/03      Revise SOP 10 06 to ensure that the                    10/20/04      6/30/06
                            implementation of restrictive operations
                            addresses: (1) appropriate levels of
                            impairment requiring restrictive operations;
                            (2) time periods SBICs should remain in
                            restrictive operations; (3) appropriateness of
                            remedies or combination of remedies that
                            should be used and under what
                            circumstances; and (4) whether forbearance
                            regulations preclude the application of
                            restrictive operations.
   4-28         7/9/04      Seek recovery of $142,549 from the 7(a)                 10/6/04      3/31/05
                            lender.
   4-36         8/10/04     That the Associate Administrator seek                   10/6/04      3/31/05
                            recovery of the SBA guaranty repair of
                            $740,000 from the 7(a) lender.

* These are a subset of the universe of recommendations without final actions.




                                                      39
                                            Appendices

                                            Appendix VII
                                    Significant Recommendations
                             From Prior Semiannual Reporting Periods
                            Without Final Action as of September 30, 2006*

                                                                                                  Final
 Report          Date                                                            Management      Action
                                          Recommendation
 Number         Issued                                                           Decision Date   Target
                                                                                                  Date
   4-39         8/31/04     Determine the appropriate number of loan                4/13/05      9/30/05
                            officers, supervisors and attorneys to be
                            assigned to the Herndon center by (1)
                            establishing the elements of quality for the
                            purchase and liquidation action review
                            process; (2) determining how much time it
                            takes to complete a quality review at each
                            level (loan officer, supervisor, attorney);
                            and (3) computing the staffing levels needed
                            to complete the estimated annual purchase
                            and liquidation action workloads at an
                            acceptable level of quality.
   5-04         11/4/04     That the Acting Associate Administrator for             4/1/05       9/30/05
                            Business Development develop and
                            implement procedures to ensure that Small
                            Disadvantaged Business (SDB) reviewers
                            properly apply all four criteria for
                            determining economic disadvantage, per 13
                            CFR 124.104(c), using 8(a) Program
                            thresholds for maximum income and total
                            assets, and industry financial performance
                            comparisons.
   5-09         1/11/05     Revise SOP 50 51 2 to direct servicing                  3/8/05       7/10/05
                            centers to send timely pre-demand and
                            demand letters to delinquent borrowers.
                            Such letters should be maintained in the
                            loan file.

* These are a subset of the universe of recommendations without final actions.




                                                      40
                                            Appendices

                                            Appendix VII
                                    Significant Recommendations
                             From Prior Semiannual Reporting Periods
                            Without Final Action as of September 30, 2006*

                                                                                                  Final
 Report          Date                                                            Management      Action
                                          Recommendation
 Number         Issued                                                           Decision Date   Target
                                                                                                  Date
   5-12         2/24/05     For all SBA internal and contractor                     4/18/05      4/15/06
                            supported general support systems and
                            major applications, e.g., Egan Mainframe,
                            SBA and Corio UNIX, Network and
                            Windows 2000; Loan Accounting System,
                            Sybase, Mainframe, JAAMS Oracle, and
                            related application functions: (1) develop
                            and document policies and procedures
                            clearly outlining what activities should be
                            logged, who should be responsible for
                            reviewing logs, what the logs should be
                            reviewed for, how often logs should be
                            reviewed, and how long logs should be
                            retained; (2) assign responsibility within the
                            Office of the Chief Information Officer
                            (OCIO) Security for the review of
                            application and general support system
                            security logs; and (3) retain audit logs for a
                            sufficient period of time (at least 90 days).
   5-17         3/30/05     That the Chief Operating Officer require                5/3/05       12/31/05
                            that personnel named in the SBA COOP
                            and BRP participate in plan testing so that
                            they understand their duties if plan
                            activation is needed.
   5-22         7/28/05     Incorporate the goals and performance                   7/19/06      9/30/06
                            indicators into the Agency’s annual
                            performance plan and use them to monitor
                            and assess the progress towards achieving
                            SBIC liquidation goals.
   5-22         7/28/05     Restructure contracts with SBIC                         7/19/06      9/30/06
                            receivership agents to include performance
                            standards that will be used to assess
                            performance.

* These are a subset of the universe of recommendations without final actions.




                                                      41
                                            Appendices

                                             Appendix VII
                                    Significant Recommendations
                             From Prior Semiannual Reporting Periods
                            Without Final Action as of September 30, 2006*

                                                                                                  Final
 Report          Date                                                            Management       Action
                                          Recommendation
 Number         Issued                                                           Decision Date    Target
                                                                                                   Date
   5-22         7/28/05     Revise SOP 10 07 to require periodic                    7/19/06      10/31/06
                            assessments of each SBIC receivership’s
                            progress and operations by comparing the
                            monthly invoices and periodic status
                            meeting results to pre-set performance
                            standards.
   5-22         7/28/05     Ensure that each case file includes                    11/14/05      10/31/06
                            documented evidence that OL staff
                            considered all liquidation methods.
   5-22         7/22/05     Revise SOP 10 07 to require OL staff to                 7/19/06      10/31/06
                            obtain, for the sale of portfolio assets by an
                            SBIC, verification that the sale was made at
                            commercially reasonable terms.

* These are a subset of the universe of recommendations without final actions.




                                                      42
                                    Appendices

                                       Appendix VIII
                      6-Month Significant Recommendations Summary
                                 as of September 30, 2006

Report                                  Date
                     Title                                    Recommendation
Number                                 Issued
 6-21    DCMS Upgrade Needs a        4/27/2006   That the Assistant Administrator for Disaster
         System Certification and                Assistance complete a full re-accreditation of
         Accreditation                           the DCMS Upgrade Project before it is
                                                 placed into production in accordance with
                                                 NIST 800-37 and SBA SOP 90-47.2. Or,
                                                 complete an Interim Authorization to Operate
                                                 (IATO) accreditation of the DCMS Upgrade
                                                 Project in accordance with NIST 800-37 and
                                                 SBA SOP 90-47.2. The IATO will only be in
                                                 use for a limited time frame while a full
                                                 scope certification and accreditation of the
                                                 DCMS Upgrade Project is performed at the
                                                 new production location.
 6-22    Audit of SBA Guarantied     5/17/2006   That the Associate Administrator for
         Loan to RR Fox, Inc.                    Financial Assistance seek recovery of
                                                 $373,258 from Chase on the guaranty paid,
                                                 less any subsequent recoveries, for loan
                                                 number 589-029-4005.
 6-23    HUBZone Program             5/23/2006   That the Associate Administrator for the
         Examination and Re-                     HUBZone set a maximum acceptable
         certification Process                   timeframe for decertifying firms and
                                                 removing them from SBA's list once a
                                                 decision has been made that such firms no
                                                 longer meet the criteria for HUBZone
                                                 participation.




                                          43
                                    Appendices

                                      Appendix VIII
                     6-Month Significant Recommendations Summary
                                as of September 30, 2006

Report                                  Date
                    Title                                     Recommendation
Number                                 Issued
 6-24    The Disaster Credit         6/8/2006    That the Associate Administrator for Disaster
         Management System                       Assistance modify the DCMS Upgrade
         Performance Test Plan                   Performance Test Plan to add scenarios for
                                                 10,000 concurrent users and further test for a
                                                 22 percent reserve margin for the DCMS
                                                 upgraded environment. Or, through
                                                 additional analysis including projections of
                                                 test results and extrapolation of test data
                                                 collected; estimate the potential concurrent
                                                 users with applicable reserve margins as a
                                                 part of systems acceptance for the June 2006
                                                 Upgrade. The resulting information should
                                                 be provided to the BTIC to determine the
                                                 extent the DCMS Upgrade Project has met
                                                 system requirements as identified in the
                                                 “Needs Statement” approved by the BTIC in
                                                 December 2005.
 6-26    Survey of the Quality       7/12/2006   That the Associate Administrator for
         Assurance Review Process                Financial Assistance consult a statistician to
                                                 develop procedures for selecting samples of
                                                 all loans purchased at the Center and specific
                                                 loan categories to be tested in the Quality
                                                 Assurance plan.
 6-26    Survey of the Quality       7/12/2006   That the Associate Administrator for
         Assurance Review Process                Financial Assistance develop procedures to
                                                 be followed when a deficiency is identified
                                                 during a quality assurance review to (1)
                                                 notify purchase reviewers of the deficiency,
                                                 (2) provide training, and (3) implement
                                                 revisions to the guaranty purchase process as
                                                 necessary.
 6-28    Audit of Duplication of     9/19/2006   That the Assistant Administrator for Disaster
         Benefits relating to the                Assistance execute test plans and procedures
         Mississippi Development                 with State agencies and HUD to ensure that
         Authority's Homeowner                   data transferred electronically or entered
         Grant Program                           manually into SBA's disaster loan systems are
                                                 correctly processed and SBA disaster loans
                                                 are accurately adjusted before grant funds are
                                                 disbursed to disaster loan victims.




                                          44
                                       Appendices

                                      Appendix VIII
                     6-Month Significant Recommendations Summary
                                as of September 30, 2006

Report                                     Date
                    Title                                         Recommendation
Number                                    Issued
 6-28    Audit of Duplication of        9/19/2006   That the Assistant Administrator for Disaster
         Benefits relating to the                   Assistance define critical tasks, identify
         Mississippi Development                    deliverables and responsible parties, and
         Authority's Homeowner                      establish key project time frames for
         Grant Program                              executing either system interface activities or
                                                    processing manual transactions for each State
                                                    which plans to participate in the HUD
                                                    Community Development Block Grant
                                                    program for Gulf Coast hurricanes.
 6-28    Audit of Duplication of        9/19/2006   That the Assistant Administrator for Disaster
         Benefits relating to the                   Assistance complete an assessment of SBA
         Mississippi Development                    loans impacted by MDA and other State-
         Authority's Homeowner                      administered HUD grants.
         Grant Program
 6-28    Audit of Duplication of        9/19/2006   That the Assistant Administrator for Disaster
         Benefits relating to the                   Assistance ensure that a Memorandum of
         Mississippi Development                    Understanding is completed for States
         Authority's Homeowner                      planning to participate in the HUD
         Grant Program                              Community Development Block Grant
                                                    program for Gulf Coast hurricanes, before the
                                                    grant funds are disbursed.
 6-31    Flexible Staffing of SBA       9/25/2006   That the Chief Operating Officer extend the
         Personnel During Times of                  Disaster Credit Management System across
         Emergencies or Catastrophes                to SBA staff and outside the Ft. Worth,
         to Aid Disaster Loan                       Sacramento, and Buffalo facilities and to
         Processing                                 third-parties that SBA contracts with for
                                                    supplemental disaster assistance.
 6-31    Flexible Staffing of SBA       9/25/2006   That the Chief Operating Officer establish a
         Personnel During Times of                  Agency-wide flexible staffing plan to respond
         Emergencies or Catastrophes                to increased loan processing needs from a
         to Aid Disaster Loan                       catastrophic disaster. This plan should
         Processing                                 consider the cost and benefits of fully
                                                    utilizing SBA personnel short term versus
                                                    solely utilizing SBA's Office of Disaster
                                                    Assistance when catastrophic disasters occur.




                                             45
                                       Appendices

                                      Appendix VIII
                     6-Month Significant Recommendations Summary
                                as of September 30, 2006

Report                                     Date
                    Title                                         Recommendation
Number                                    Issued
 6-32    Economically Disadvantaged     9/25/2006   That the Associate Administrator for Business
         Status of an 8(a) Program                  Development determine whether contingent
         Participant's Owner                        assets such as trusts should be considered
                                                    when assessing economic disadvantage and
                                                    whether any regulation changes on this are
                                                    needed.
 6-33    SBA’s Acquisition              9/29/2006   That the Associate Deputy Administrator for
         Personnel Education and                    Management and Administration, in his role
         Training                                   as SBA’s Chief Acquisition Officer develop a
                                                    plan for meeting the requirements of Policy
                                                    Letter 05-01 that assigns responsibility and
                                                    establishes timeframes for identifying the
                                                    workforce, assessing skill levels and training
                                                    needs, and provides for the tracking and
                                                    reporting of workforce data.
 6-35    Deficiencies in OFA’s          9/29/2006   That the Associate Administrator for
         Purchase Review Process for                Financial Assistance perform a risk analysis
         Backlogged Loans                           of the backlog loan portfolio to identify loans
                                                    with a high-risk of improper payment (for
                                                    example, early defaulted loans with large
                                                    purchase amounts) and perform thorough
                                                    purchase reviews of these loans to identify
                                                    improper purchases and seek recovery from
                                                    the lenders as necessary.




                                             46
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                         Event        Event
 Name/Subject of                                    Location of
                         Start         End                                     Name(s) of Cosponsor(s)
     Event                                            Event
                         Date         Date
 Santa Ana              4/20/06      4/20/06     Anaheim, CA           California State University Fullerton,
 District Small                                                        Comerica Bank, Southland EDC,
 Business Week                                                         CDC Small Business Finance
 Awards                                                                Corporation and Advantage CDC
 Ceremony
 Public Workshop:       4/25/06      5/24/06     Washington, DC        Food and Drug Administration for
 Small                                                                 Drug and Evaluation and Research
 Pharmaceutical                                                        (FDA)
 Business
 Education Forum
 OC E-Biz 2006          4/28/06      4/28/06     Fullerton, CA         Asian Women in Business-Southern
                                                                       California Chapter
 Small Business           5/06       6/30/06     Maine                 The Bangor Daily News
 Person of the
 Year (SBPY)
 Newspaper Insert
 Small Business          5/8/06      5/11/06     St. Louis, MO         Small Business Week Of Eastern
 Week 2006                                                             Missouri, Inc.
 Series of (6)          5/10/06      6/14/06     Chesterfield          Sharing It With Bee Bee, Inc.
 televised                                       County, VA
 interviews (for
 cable) with SBA
 staff and
 Resource Partners
 and Success
 Stories
 SBA Expo,              5/10/06      5/10/06     Buffalo, NY           SCORE Buffalo Niagara, Business
 Business                                                              First
 Matchmaker and
 Small Business
 Week Awards
 Luncheon
 Buffalo/Niagara
 Small Business         5/12/06      5/12/06     Richmond, VA          Small Business Awards Foundation,
 Awards                                                                Inc.
 Luncheon

* The Agency provided this information. It has not been verified by the OIG.


                                                       47
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                         Event        Event
 Name/Subject of                                    Location of
                         Start         End                                     Name(s) of Cosponsor(s)
     Event                                            Event
                         Date         Date
 Small Business         5/15/06      5/15/06     San Juan, PR          Puerto Rico Chamber of Commerce
 Week
 Proclamation and
 SBA’s 50th
 Anniversary in
 Puerto Rico
 Port Washington        4/26/06      4/26/06     Port Washington,      The Greater Port Washington
 Small Business         5/17/06      5/17/06     NY                    Business Improvement District, The
 Development                                                           Port Washington Chamber of
 Series                                                                Commerce, The Port Washington
                                                                       Public Library
 Small Business         5/19/06      5/19/06     Hato Rey, PR          Puerto Rico Bankers Association
 Week Breakfast
 and Awards
 Ceremony
 Hispanic               5/20/06      6/20/06     Detroit, MI           Chase
 Business
 Conference
 Small Business         5/24/06      6/24/06     Dover, DE             Delaware Economic Development
 Week Awards                                                           Office
 Dinner
 Small Business         5/31/06      6/16/06     Los Angeles, CA       Los Angeles Chamber of Commerce
 Week Awards
 Luncheon
 4th Annual             5/31/06       6/2/06     Universal City,       The Asociacion Mundial de
 Convention of                                   CA                    Mexicanos en el Exterior (AMME)
 Mexicans Abroad                                                       (The Worldwide Association of
                                                                       Mexicans Abroad)
 Dan River Region        6/1/06       6/1/06     Danville, VA          Dan River Business Development
 Veterans                                                              Center, Dan River SBDC - Longwood
 Conference                                                            University, Virginia Center for
                                                                       Innovative Technology
 Connecticut XPO         6/1/06       6/1/06     Hartford, CT          Connecticut Business & Industry
 For Business                                                          Association, Connecticut Small
                                                                       Business Development Center

* The Agency provided this information. It has not been verified by the OIG.




                                                       48
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                         Event        Event
 Name/Subject of                                    Location of
                         Start         End                                     Name(s) of Cosponsor(s)
     Event                                            Event
                         Date         Date
 Small Business         6/15/06      6/15/06     New Haven, CT         Connecticut Small Business - Key to
 Week                                                                  the Future
 Recognition
 Program
 2nd Annual 2006        6/15/06      6/16/06     Anchorage, AK         State of Alaska Department of
 Statewide Small                                                       Commerce, Community and
 Business & Faith-                                                     Economic Development
 Based &
 Community
 Initiatives
 Conference
 Franchising            6/17/06      7/16/06     Columbus, OH          Business Development Finance
 Event                                                                 Corporation, Ohio SBDC, Ohio
                                                                       Procurement Technical Assistance
                                                                       Centers, Ohio Minority Contractor’s
                                                                       Business Assistance Program,
                                                                       Buckingham, Doolittle & Burroughs,
                                                                       LLP and City of Columbus
 Training               6/20/06      8/26/06     Los Angeles, CA       Metropolitan Water District and Long
 Workshops              6/27/06                                        Beach City College – Small Business
                                                                       Development Center
 How to Start and       7/11/06      7/11/06     Baltimore, MD         Woodlawn Public Library, Central
 Manage a Small                                                        Region MD SBDC Subcenter
 Business
 Internet               7/18/06      7/18/06     Columbus, OH          Thomas Industrial Network, Inc. and
 Marketing                                                             the Ohio Manufacturers’ Association
 Seminar
 SBA/VA Small           7/26/06      7/30/06     Miami, FL             U.S. Department of Veterans Affairs
 Business Summit
 2006 PROCON-           7/26/06      7/26/06     Fullerton, CA         The Asian Business Association of
 TECHCON                                                               Orange County
 SBA/HOBY               7/30/06      9/30/06     Washington, DC        Hugh O’Brian Youth Leadership
 International                                                         (HOBY)
 Business and
 Entrepreneurship
 Program

* The Agency provided this information. It has not been verified by the OIG.



                                                       49
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                         Event        Event
 Name/Subject of                                    Location of
                         Start         End                                     Name(s) of Cosponsor(s)
     Event                                            Event
                         Date         Date
 7th Annual             8/17/06      9/16/06     Denver, CO            Denver Public Library,
 Business                                                              Minority/Women Chambers’
 Resource Fair                                                         Coalition, Colorado Small Business
                                                                       Development Center (through the
                                                                       State of Colorado) and Denver
                                                                       SCORE Chapter
 Spirit of Small        8/18/06      9/18/06     Santa Barbara,        Pacific Coast Business Times
 Business 2006                                   CA
 Awards
 Luncheon
 SBA Programs &         8/24/06      8/24/06     Honolulu, HI          Chaminade University Tax
 Services and                                                          Foundation
 Federal
 Procurement and
 Legal and Tax
 Seminar
 Capital Access         8/30/06      9/30/06     Columbus, OH          Office of Congressman Pat Tiberi,
 2006                                                                  Columbus State Community College
                                                                       though Ohio SBDC, State of Ohio
                                                                       Department of Development through
                                                                       Minority Contractors Business
                                                                       Assistance Program
 Online Training        8/31/06      8/31/06     World Wide Web        Image Publishing, Inc.
 Module
 Small Business           9/06         9/06      World Wide Web        U.S. Postal Service
 Video Success
 Stories
 Financial                9/06         9/08      Washington, DC        Accounting Comes Alive
 Communication
 for Small
 Business
 Signage For Your        9/1/06      9/30/08     World Wide Web        The Signage Foundation for
 Business                                                              Communications Excellence/Website


* The Agency provided this information. It has not been verified by the OIG.




                                                       50
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                         Event        Event
 Name/Subject of                                    Location of
                         Start         End                                     Name(s) of Cosponsor(s)
     Event                                            Event
                          Date         Date
 Gateway                 9/8/06       6/8/07     New Haven, CT         Gateway Community College
 Community                                                             Business Resource Center and New
 College                                                               Haven SCORE Chapter #66
 Procurement
 Workshop Series
 and Matchmaker
 Workshop:              9/20/06     10/20/06     Claymont, DE          National Association of Women
 Publicity 101 –                                                       Business Owners (NAWBO)
 Meet the Press                                                        Delaware Chapter
 The Government         8/16/06      8/16/06     Baltimore, MD         Greater Baltimore Urban League
 Contractor             9/20/06      9/20/06
 Workshop Series:
 SBA Surety Bond
 Workshop,
 Contract
 Financing
 Workshop and
 the Government
 Cost Proposal
 Process
 Workshop
 Business               9/21/06     10/21/06     Southbury, CT         Waterbury Regional Chamber of
 Women’s Forum                                                         Commerce
 Employee Stock         9/26/06      9/26/08     Washington, DC        The Society for Financial Awareness
 Ownership
 Training Program
 (ESOP)
 Series of training     9/30/06      9/30/06     Kansas City,          Urban Entrepreneur Partnership, Inc.
 initiatives                                     Cleveland,
 targeting urban                                 Jacksonville,
 entrepreneurs                                   Cincinnati,
                                                 Atlanta,
                                                 Baltimore,
                                                 Milwaukee and
                                                 Baton Rouge

* The Agency provided this information. It has not been verified by the OIG.




                                                       51
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                         Event        Event
 Name/Subject of                                    Location of
                         Start         End                                     Name(s) of Cosponsor(s)
     Event                                            Event
                         Date         Date
 Training and           9/30/06      9/30/08     UEP Gulf Coast,       UEP Gulf Coast, Inc.
 assistance to                                    Inc. Centers
 small business
 entrepreneurs in
 the Gulf Coast
 region of the U.S.
 Event Series:          10/1/06      9/30/09        Nationwide         Dun & Bradstreet, Inc. (D & B)
 Webinars, CD-
 ROM and
 Managing Your
 Business Credit
 Brochure
 2006 National          10/5/06      10/6/06      Las Vegas, NV        The Signage Foundation for
 Signage Research                                                      Communications
 Symposia                                                              Excellence/Symposia
 Capital Access         10/7/06     12/31/06       Granada Hills,      Valley Economic Development
 Workshop –                                             CA             Corporation
 Where is the
 Money?
 Research &            10/12/06     10/12/06      New York, NY         Industrial & Technology Assistance
 Development                                                           Corporation
 Grants, SBIR &
 SBA Financing
 Programs
 Matchmaker             9/19/06     11/16/06     Wallingford, CT       Quinnipiac Chamber of Commerce
 Primer Workshop       10/17/06
 and Mini-
 matchmaker
 Women’s               10/19/06     10/19/06      Timonium, MD         Business and Professional Women of
 Business                                                              Maryland (BPW/MD)
 Roundtable:
 Marketing on a
 Shoestring

* The Agency provided this information. It has not been verified by the OIG.




                                                       52
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                        Event        Event
 Name/Subject of                                    Location of
                        Start         End                                      Name(s) of Cosponsor(s)
     Event                                            Event
                         Date         Date
 MED Week              10/26/06     10/26/06     El Paso, TX           El Paso Hispanic Chamber of
 Procurement                                                           Commerce and El Paso Community
 Matchmaking                                                           College
 Symposium and
 Awards
 Luncheon
 SBIR Conference                                 Garden Grove          Asian Women In Business, Southern
                                                                       California
                       10/27/06     10/27/06


 Vermont’s 10th                                  Randolph, VT          The Office of U.S. Senator Patrick
 Annual Women’s                                                        Leahy, Vermont Small Business
 Economic                                                              Development Center, U.S.
 Opportunity                                                           Department of Labor – Women’s
 Conference                                                            Bureau, Vermont Agency of
                                                                       Transportation, Vermont Commission
                                                                       on Women, Women’s Agricultural
                                                                       Network, Vermont Department of
                                                                       Economic Development, Vermont
                                                                       Women’s Business Center, Central
                       10/28/06     11/28/06
                                                                       Vermont Community Action Council,
                                                                       Vermont Attorney General, Vermont
                                                                       Dept. of Labor, Vermont
                                                                       Manufacturing Extension Center,
                                                                       Vermont Works for Women, Vermont
                                                                       Business Education Corporation,
                                                                       Vermont Agency of Human Services
                                                                       Office of Economic Opportunity,
                                                                       Vermont Interactive Television and
                                                                       U.S. Dept. of Agriculture
 NY XPO For                                      New York, NY          Event Management
 Business Trade        11/29/06     11/29/06
 Show
 Business Start-up      10/4/06      10/4/06     Santa Ana, CA         Templo Calvario Community
 Workshop Series        11/8/06      11/8/06                           Development Corporation
                        12/6/06      12/6/06

* The Agency provided this information. It has not been verified by the OIG.



                                                       53
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                         Event        Event
 Name/Subject of                                    Location of
                         Start         End                                     Name(s) of Cosponsor(s)
     Event                                            Event
                         Date         Date
 SBA New York          10/19/06     10/19/06     New York, NY          KIP Business Report
 Monthly Small         11/16/06     11/16/06
 Business Success      12/14/06     12/14/06
 Series                 1/18/07      1/18/07
                        2/15/07      2/15/07
                        3/15/07      3/15/07
                        4/19/07      4/19/07
                        5/17/07      5/17/07
 Strategies for         2/1/07       3/1/07      Burlington, VT        Vermont Agency of Transportation,
 Winning                                                               Vermont Department of Buildings
 Government                                                            and General Services, Vermont
 Contracts:                                                            Department of Economic
 Practical Tips and                                                    Development, Vermont Agency of
 Hands on Help                                                         Natural Resources, Vermont
 for Small                                                             Manufacturing Extension Center,
 Business                                                              Vermont Small Business
                                                                       Development Center through the
                                                                       Vermont State Colleges Network and
                                                                       Federal Highway Administration
 Colorado Women         2/22/07      3/24/07     Denver, CO            National Association of Women
 Business Owners                                                       Business Owners (NAWBO)
 Conference: In                                                        Denver Chapter
 Good
 Company/Strategi
 es & Tactics for
 Entrepreneurial
 Women
 Black Business         2/27/07      3/28/07     Detroit, MI           Chase Bank and Alpha Phi Alpha
 Conference 2007                                                       Fraternity, Inc.
 Building a Better      3/28/07      3/28/07     Kansas City, MO       Ewing Marion Kauffman Foundation,
 Small Business                                                        Public Forum Institute
 Climate: State
 Regulatory
 Flexibility Best
 Practices

* The Agency provided this information. It has not been verified by the OIG.




                                                       54
                                               Appendices

                                              Appendix IX
               List of Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                              April 1, 2006, through September 30, 2006

                         Event        Event
 Name/Subject of                                    Location of
                         Start         End                                     Name(s) of Cosponsor(s)
     Event                                            Event
                         Date         Date
 Michigan               4/12/07      4/12/07     East Lansing, MI      Michigan Small Business &
 Celebrates Small                                                      Technology Development, Small
 Business                                                              Business Assn of Michigan
                                                                       Foundation, Michigan Economic
                                                                       Development Corporation, Edward
                                                                       Lowe Foundation
 E-Business             4/27/07      4/27/07     Fullerton, CA         Asian Women In Business, Southern
 Conference                                                            California
 Small Business         5/24/07      5/22/08     Washington, DC        Creative Learning, Inc.
 Awards Breakfast

* The Agency provided this information. It has not been verified by the OIG.




                                                       55
                                    Appendices

                                       Appendix X
                                 Legal Actions Summary
                       April 1, 2006, through September 30, 2006

                                                                                      Investigated
State   Program      Alleged Violation(s) Prosecuted             Legal Action
                                                                                      Jointly With
AZ      GC        The owner of two construction              Owner pled guilty        DHS/OIG,
                  companies submitted false references       and was sentenced to     USDA/OIG,
                  to the U.S. Coast Guard to obtain a        3 years probation and    DOI/OIG,
                  Federal HUBZone contract.                  a $5,000 fine.           GSA/OIG,
                                                                                      VA/OIG,
                                                                                      DCIS,
                                                                                      TIGTA
CA      BL        The owners of a trucking company           Owners indicted and      None
                  allegedly failed to disclose a $184,000    have formally agreed
                  payroll tax liability when applying for    to repay the loan
                  a $137,000 SBA-guarantied loan.            prior to sentencing.
IA      BL        Two individuals associated with an         Two individuals          FBI
                  Iowa motel allegedly provided false        indicted.
                  account balance verification letters
                  during the loan application process in
                  order to induce a financial institution
                  and the SBA to approve a $1.2 million
                  SBA-guarantied loan.
IL      BL        Seven individuals were named in a          Four individuals have    FBI, IRS
                  civil complaint for their involvement in   settled their claims
                  a fraud scheme relating to a               with the government
                  $1.25 million SBA guarantied loan for      resulting in a total
                  the purchase of an Illinois restaurant.    settlement amount of
                  The individuals conspired to provide       $235,000.
                  an unqualified borrower with the funds
                  for the required capital injection.
IL      BL        The president of an electrical supply      President pled guilty    FBI
                  company and his cousin allegedly           to criminal
                  conspired to make the business appear      information. The
                  more profitable than it actually was by    president’s cousin
                  filing a false tax return. This scheme     was previously
                  affected the approval of a $1.1 million    charged.
                  SBA loan to the purchasers of the
                  business.
MI      BL        The president of a gas station and         President pled guilty.   DHS/ICE
                  convenience store falsely stated that he
                  did not have a criminal record in order
                  to assume an existing SBA guarantied
                  loan of $640,000.




                                             56
                                    Appendices

                                       Appendix X
                                 Legal Actions Summary
                       April 1, 2006, through September 30, 2006

                                                                                    Investigated
State   Program     Alleged Violation(s) Prosecuted             Legal Action
                                                                                    Jointly With
MI      BL        Six individuals obtained over             Six individuals         DHS/ICE
                  $3.5 million in SBA guarantied loans      indicted.
                  to purchase gas stations/convenience
                  stores. They have been charged for
                  their roles in alleged schemes to
                  defraud the SBA and a participating
                  lender by providing false information
                  relating to equity injections and
                  misusing the proceeds of the loans.
MO      SBIC      A civil complaint alleged that the        The former CEO          None
                  former CEO of an SBIC breached his        settled the
                  fiduciary duty by improperly              government’s claim
                  converting funds for his own personal     against him in
                  benefit to the detriment of the SBIC.     exchange for cash
                                                            payments to the SBA
                                                            totaling $175,000.
NY      DL        Former co-owners of a New York            Both owners pled        SSA/OIG
                  financial firm falsely claimed physical   guilty. They were
                  damage and economic injury as a result    each sentenced to
                  of the September 11th terrorist attacks   2 years in prison and
                  when applying for a $1 million SBA        order to pay
                  disaster loan as well as aid from         combined restitution
                  charitable organizations. The SBA         of over $19,000 to
                  denied the loan request because one of    the charitable
                  the owners had never filed U.S.           organizations.
                  Federal tax returns.
NY      DL        The owner of a motor vehicle and parts    Owner pled guilty.      USPIS
                  business obtained a $646,900 SBA
                  disaster loan for losses resulting from
                  the September 11th terrorists attacks.
                  The owner forged the endorsements of
                  vendors on SBA issued two-party
                  checks totaling $131,600 and used the
                  funds for a new business.




                                            57
                                    Appendices

                                       Appendix X
                                 Legal Actions Summary
                       April 1, 2006, through September 30, 2006

                                                                                      Investigated
State   Program     Alleged Violation(s) Prosecuted             Legal Action
                                                                                      Jointly With
NY      BL        The owner of a now-defunct wholesale      Owner indicted.           FBI
                  company obtained an SBA guarantied
                  loan in the amount of $1,550,000 on
                  behalf of his company. It is alleged
                  that the owner failed to disclose this
                  loan when he became a guarantor on
                  another SBA loan and that he diverted
                  cash from the company to himself and
                  other entities that he owned or
                  controlled.
PA      BL        A businessman fraudulently obtained a     Businessman charged       FBI
                  $993,000 SBA-guarantied loan by           by criminal
                  pledging collateral not belonging to      information.
                  him and falsely claiming he had made
                  a $250,000 cash injection.
PA      BL        The SBA Early Fraud Detection             Bank cancelled un-        None
                  Working Group discovered that an          disbursed loan due to
                  attorney had applied for three SBA        prior default.
                  Express Loans totaling $115,000. One
                  of the two loans that had already been
                  dispersed was in default. One loan had
                  not yet been disbursed.
PA      BL        An unknown individual delivered an        The bank cancelled        None
                  SBA Express Loan application for a        the loan resulting in a
                  $100,000 loan to a bank. The              cost avoidance of
                  application contained false identifying   $100,000.
                  information about the borrower, the
                  owner of an auto body shop. The
                  owner had never communicated with
                  the bank.
PR      IA        The head of the SBA’s 8(a) division in    SBA official found        FBI,
                  Puerto Rico accepted monthly cash         guilty in a jury trial.   GSA/OIG
                  payments totaling over $30,000 in
                  exchange for awarding over
                  $16 million in SBA 8(a) sole source
                  contracts to an engineering firm.




                                            58
                                     Appendices

                                        Appendix X
                                  Legal Actions Summary
                        April 1, 2006, through September 30, 2006

                                                                                      Investigated
State   Program      Alleged Violation(s) Prosecuted              Legal Action
                                                                                      Jointly With
PR      BL        A Puerto Rican businessman, who had         The businessman was     FBI
                  been denied an SBA Micro-loan               sentenced to
                  because of a poor credit history,           3 years probation and
                  conspired with his brother and another      $43,591 in
                  co-conspirator to apply for and receive     restitution. Judicial
                  a $25,000 SBA Micro-loan on his             proceedings against
                  behalf. The applicants falsely stated       his brother are
                  how the loan proceeds were to be used.      continuing. The
                                                              other co-conspirator
                                                              was sentenced to
                                                              2 years probation.
PR      GC        The president of an 8(a) engineering        The attorney was        GSA/OIG
                  firm made illegal payments to a former      sentenced to
                  restaurant manager in exchange for          33 months in prison
                  awarding over $1 million in electrical      and was made to
                  contracts to his company. It was also       surrender his law
                  determined that the president’s             license. The other
                  attorney interfered with and obstructed     defendants were
                  the investigation into the illegal          sentenced to varying
                  kickback payments.                          amounts of home
                                                              confinement,
                                                              probation, and
                                                              community service.
                                                              The company and its
                                                              president were each
                                                              fined $250,000.
SC      DL        The owner of a manufactured home            Owner pled guilty       FBI
                  sales dealership obtained a disaster        and was sentenced to
                  loan for $487,600 for economic              30 months in prison,
                  injuries resulting from the September       5 years probation,
                  11th terrorist attacks. The owner           and restitution of
                  falsely represented that the finance        $834,942.
                  company he used was located in New
                  York City and had stopped financing
                  manufactured homes due to the
                  terrorist attacks.
SD      BL        A guarantor on a 504 loan to a marina       Guarantor indicted.     IRS
                  submitted false Personal Financial
                  Statements and false tax returns
                  representing that he had filed tax
                  returns and that he had no tax liability.


                                              59
                                    Appendices

                                       Appendix X
                                 Legal Actions Summary
                       April 1, 2006, through September 30, 2006

                                                                                     Investigated
State   Program      Alleged Violation(s) Prosecuted            Legal Action
                                                                                     Jointly With
TN      BL        The president of a pager and cellular      President sentenced     None
                  telephone retailer induced a bank and      to 6 months home
                  SBA to fund a $100,000 SBA-                confinement,
                  guarantied loan by submitting invoices     2 years probation,
                  that inflated the selling price of the     and restitution of
                  business and the value of the              $90,421.
                  equipment being purchased. She then
                  pocketed the difference between the
                  actual price and the reported sales
                  price.
TX      DL        Seven individuals allegedly filed          Seven individuals       DHS/OIG,
                  fraudulent applications for FEMA           have been indicted      SSA/OIG,
                  benefits claiming to have incurred         and two have pled       USPIS,
                  damages as a result of the 2005 Gulf       guilty as a result of   DOL/OIG,
                  Coast hurricanes. These false claims       work done by the        HUD/OIG
                  resulted in the individuals being          multi-agency task
                  eligible for SBA disaster loan benefits.   force.
TX      BL        A borrower, along with a loan broker       Four defendants have    None
                  and three other individuals,               pled guilty. One of
                  participated in a fraudulent scheme to     the four has been
                  secure a $1 million SBA-guarantied         sentenced to 10
                  loan to purchase a convenience store.      months in prison, 3
                  The scheme involved the submission         years probation, and
                  of an inflated purchase price contract     restitution of
                  to the lender.                             $624,565. An arrest
                                                             warrant remains
                                                             outstanding for the
                                                             fifth defendant.
TX      BL        A real estate broker/loan packager and     The broker/loan         FBI
                  several co-conspirators falsely            packager pled guilty
                  obtained nine SBA-guarantied loans         and was sentenced to
                  totaling $9.5 million for convenience      6 months home
                  stores. The borrowers submitted false      confinement,
                  documentation, artificially inflated       5 years supervised
                  account deposits, and used loan            release, 200 hours
                  proceeds to fund equity injections.        community service,
                                                             and restitution of
                                                             $7,311,874.




                                             60
                                    Appendices

                                        Appendix X
                                  Legal Actions Summary
                        April 1, 2006, through September 30, 2006

                                                                                     Investigated
State   Program      Alleged Violation(s) Prosecuted             Legal Action
                                                                                     Jointly With
TX      BL        A borrower falsely indicated he was a      Borrower pled guilty.   DHS/ICE,
                  U.S. citizen when applying for a                                   TEXAS-
                  $308,000 SBA-guarantied loan to                                    ABC
                  purchase a convenience store. He later
                  applied for an additional $870,000
                  SBA-guarantied loan and falsely
                  indicated that he had no previous SBA
                  debt.
TX      BL        An applicant misrepresented his            Applicant charged by    USPIS
                  educational background, provided           criminal information.
                  fraudulent tax returns, and provided
                  another person’s social security
                  number when applying for a $150,000
                  SBA business loan.
TX      BL        Two brothers and their cousin              Two brothers and        FBI
                  allegedly conspired to falsely represent   cousin indicted.
                  that the required equity injections had
                  been made in order to obtain SBA-
                  guarantied loans for $500,000 and
                  $1.1 million to purchase convenience
                  stores.
UT      BL        The part owner of a vitamin and herb       The part owner pled     UCSO
                  production company obtained a              guilty and was
                  $905,000 SBA loan in his company’s         sentenced to
                  name by falsely representing that he       2 years probation,
                  had authorization from the Board of        100 hours of
                  Directors and that board members were      community service, a
                  guaranteeing the loan.                     $1,160 fine, and
                                                             $36,866 in
                                                             restitution.
UT      BL        Three corporate officers of a landscape    Three corporate         None
                  design firm submitted false loan           officers pled guilty
                  documentation in order to obtain two
                  separate SBA loans totaling $470,100.
                  The officers failed to disclose in their
                  loan application that they owed
                  delinquent payroll taxes.




                                             61
                                     Appendices

                                        Appendix X
                                  Legal Actions Summary
                        April 1, 2006, through September 30, 2006

                                                                                      Investigated
 State   Program      Alleged Violation(s) Prosecuted             Legal Action
                                                                                      Jointly With
VI       DL        Co-owners of a house located in the        Both owners were        DHS/OIG
                   Virgin Islands falsely represented to      debarred by the SBA
                   the SBA and other government and           from participating in
                   insurance entities that their house had    Federal financial and
                   sustained hurricane damage. In reality,    non-financial
                   the house had been damaged by a            assistance programs.
                   previous hurricane, and they had
                   purchased it with such damage in “as
                   is” condition.
WA       BL        The former owner of a cabinet making       Former owner pled       None
                   business inflated his Personal Financial   guilty to criminal
                   Statement and failed to disclose a prior   information.
                   bankruptcy when he applied for a
                   $1.5 million SBA-guarantied loan to
                   purchase the cabinet making business.
Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and
Section 8(a) Business Development Joint-investigation Federal Agency Acronyms:
DCIS=Defense Criminal Investigative Service; DHS/ICE=Department of Homeland
Security/Immigration and Customs Enforcement; DHS/OIG=Department of Homeland Security
OIG; DOI/OIG=Department of Interior/OIG; DOL/OIG=Department of Labor OIG;
FBI=Federal Bureau of Investigation; GSA/OIG=General Services Administration OIG;
HUD/OIG=Housing and Urban Development/OIG; IRS=Internal Revenue Service;
SSA/OIG=Social Security Administration/OIG; TEXAS-ABC=Texas Alcoholic Beverage
Commission; TIGTA=Treasury Inspector General for Tax Administration; UCSO=Utah County
Sheriff’s Office; USDA/OIG=Department of Agriculture/OIG; USPIS=United States Postal
Inspection Service; VA/OIG=Veterans Administration/OIG.




                                              62
                                                                    Appendix XI
                                                            Small Business Administration
                                                             Office of Inspector General



                                                                         Inspector
                                                                          General
                                                                                                                       Counsel Division
                                                                     Deputy Inspector
                                                                        General




     Auditing Division                                                                Investigations Division                             Management and Policy
                                                   Security Operations                                                                          Division



                            Business Development
Credit Programs
                              Programs Group
    Group                                                                Eastern Region             Central Region          Southern Region           Western Region

                             Washington, DC
   Atlanta, GA
                                                                            Atlanta, GA               Chicago, IL            New Orleans, LA            Denver, CO


   Chicago, IL            Financial Management
                               & IT Group                                  Herndon, VA                Dallas, TX              Miami, FL                 Los Angeles, CA


  Herndon, VA                Washington, DC
                                                                          New York, NY                Detroit, MI                                       Tacoma, WA


 Los Angeles, CA
                         Disaster Programs Group                          Philadelphia, PA            Houston, TX


 Washington, DC
                                Dallas, TX                                Washington, DC             Kansas City, MO




                             New Orleans, LA




                             Washington, DC
                       Make A Difference
To promote integrity, economy, and efficiency, we encourage you to report
instances of fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                    CALL
                           1-800-767-0385 (Toll Free)




                            Write or Visit
                      U.S. Small Business Administration
                          Office of Inspector General
                            Investigations Division
                       409 Third Street, SW. (5th Floor)
                            Washington, DC 20416

                       Or E-mail Us at OIG@SBA.GOV




*Upon request, your name will be held in confidence.
